<html>
<title> - UNDERSTANDING THE HOMELAND THREAT LANDSCAPE -- CONSIDERATIONS FOR THE 112TH CONGRESS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                   UNDERSTANDING THE HOMELAND THREAT 

            LANDSCAPE--CONSIDERATIONS FOR THE 112TH CONGRESS

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 9, 2011

                               __________

                            Serial No. 112-1

                               __________

       Printed for the use of the Committee on Homeland Security

                                     

[GRAPHIC] [TIFF OMITTED]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
72-212                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Jane Harman, California
Michael T. McCaul, Texas             Sheila Jackson Lee, Texas
Gus M. Bilirakis, Florida            Henry Cuellar, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan          Laura Richardson, California
Tim Walberg, Michigan                Donna M. Christensen, U.S. Virgin 
Chip Cravaack, Minnesota                 Islands
Joe Walsh, Illinois                  Danny K. Davis, Illinois
Patrick Meehan, Pennsylvania         Brian Higgins, New York
Ben Quayle, Arizona                  Jackie Speier, California
Scott Rigell, Virginia               Cedric L. Richmond, Louisiana
Billy Long, Missouri                 Hansen Clarke, Michigan
Jeff Duncan, South Carolina          William R. Keating, Massachusetts
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security.......................................................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California:
  Prepared Statement.............................................     5

                               Witnesses

Hon. Janet Napolitano, Secretary, Department of Homeland 
  Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Michael E. Leiter, Director, National Counterterrorism 
  Center:
  Oral Statement.................................................    17
  Prepared Statement.............................................    20

                             For the Record

The Honorable Brian Higgins, a Representative in Congress From 
  the State of New York:
  Letter From Secretary Janet Napolitano, August 9, 2010.........    34

                                Appendix

Questions From Ranking Member Bennie G. Thompson of Mississippi 
  for Janet Napolitano...........................................    61


  UNDERSTANDING THE HOMELAND THREAT LANDSCAPE--CONSIDERATIONS FOR THE 
                             112TH CONGRESS

                              ----------                              


                      Wednesday, February 9, 2011

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:04 a.m., in Room 
311, Cannon House Office Building, Hon. Peter T. King [Chairman 
of the committee] presiding.
    Present: Representatives King, Lungren, McCaul, Bilirakis, 
Broun, Miller, Walberg, Cravaack, Walsh, Meehan, Quayle, 
Rigell, Long, Duncan, Farenthold, Brooks, Thompson, Sanchez, 
Harman, Jackson Lee, Cuellar, Clarke of New York, Richardson, 
Christensen, Davis, Higgins, Speier, Richmond, Clarke of 
Michigan, and Keating.
    Chairman King [presiding]. The Committee on Homeland 
Security will come to order. The committee is meeting today to 
hear testimony from Homeland Security Secretary Janet 
Napolitano and National Counterterrorism Director Michael 
Leiter on the homeland threat landscape. I look forward to the 
hearing, and I now recognize myself for an opening statement.
    I want to welcome our returning and new committee Members 
to this, the first hearing of the 112th Congress. We also 
welcome back Secretary Napolitano and Director Leiter to the 
committee and thank them for appearing today, as they have done 
in the past.
    While she is not here yet, let me also take the opportunity 
to recognize the outstanding service of Representative Jane 
Harman, who has announced that she will be leaving Congress to 
run the Woodrow Wilson International Center for Scholars. Jane 
Harman has been a leader on this committee.
    She has been a leader in the Congress. No one since 
September 11, 2001, and even before that, for that matter, has 
been more knowledgeable or informed or dedicated to 
intelligence and homeland security issues, and her departure is 
a loss to both sides of the aisle. We certainly--we hope 
everyone, I believe--we certainly wish her well in her new 
role.
    Let me also express my deepest sympathy to the family of 
David Hillman, a retired CBP officer who was killed by a 
suicide bomb in Kandahar while working as a boarder mentor and 
adviser. There are other CBP personnel, Michael Lachowsky, 
Terry Sherrill, and Vernon Rinus, who were also injured in the 
attack. Our thoughts and prayers are with them all.
    To me that just personifies the level of patriotism that 
CBP officers demonstrate no matter where they happen to be 
located. They perform a tremendous service to our country. 
Also, we should never forget there are members of the DHS 
family serving all around the world, working to protect the 
homeland.
    Ms. Harman has just arrived.
    We said very good things about you, Jane. Again, great to 
have you here. Thank you.
    As we begin the work of the 112th Congress, the goal of the 
committee today is to get a comprehensive review of the 
terrorist threats facing our Nation. Today we will be in an 
open, unclassified session, and so I would ask that the 
Secretary and the Director if they could report back to us any 
Members' questions which might require a classified response.
    The top priority for the committee is to counter the 
serious and evolving terrorist threats facing our country. 
Let's put our work in context. A number of committee Members 
recently went out to the NCTC and heard from Director Leiter in 
a classified setting about threats and plots against the United 
States and our allies.
    As we approach the 10th anniversary of September 11, we are 
constantly reminded that terrorists continue to plot to kill 
Americans at home and abroad. According to Attorney General 
Holder, in the last 2 years alone there have been 126 people 
indicted for terrorist-related activity, including 50 U.S. 
citizens.
    There was the Times Square bomber Shahzad. There was the 
Fort Hood terrorist, Army Major Hasan. There was the Little 
Rock recruiting center shooter, the New York City subway 
bomber, the Mumbai plotter David Headley. There is Jihad Jane, 
dozens of individuals in Minnesota, and so many other plots and 
cases--Portland, Oregon; Ashburn, Virginia; Riverdale section 
of the Bronx; Dallas, Texas; Springfield, Illinois; John F. 
Kennedy Airport; Fort Dix; Baltimore. We can go through an 
entire list of cases just in the last several years.
    Homegrown radicalization is a growing threat, and one we 
cannot ignore. This shift, as far as I am concerned, is a game 
changer that presents a serious challenge to law enforcement 
and the intelligence community. Indeed, Attorney General Holder 
said that he loses sleep at night thinking of the young men in 
this country who were raised in this country who are being 
radicalized and willing to take up arms against their own 
Nation.
    Just last week, Senator Joe Lieberman and Senator Susan 
Collins released a bipartisan Senate Homeland Security 
Committee report examining the events leading up to the 
terrorist attack at Fort Hood. The report concluded that the 
Department of Defense should confront the threat of 
radicalization to violent Islamist extremism amongst service 
members explicitly and directly, unquote.
    I believe this statement is true for the entire Government. 
We must confront this threat explicitly and directly. That is 
why I intend to hold a hearing next month examining the threat 
of domestic radicalization in the Muslim community.
    Because of policies the United States has implemented since 
September 11, the threat from al-Qaeda has evolved, but it is 
still deadly. Because of the layers of defense that we have set 
in place that we have put in motion, it is very difficult for 
al-Qaeda to launch an attack similar to what happened on 
September 11. Obviously, it is possible, but it is much more 
difficult for them, and they have realized that.
    They have adapted their strategy and their tactics so they 
are now recruiting from within the country, and they are 
looking for people who are under the radar screen, people who 
are living here legally, people who have green cards, people 
who are citizens, people who have no known terrorist activity.
    Again, probably the classic example of that would be Zazi 
in New York, who was raised in Queens, went to high school, had 
a small business in lower Manhattan, and was brought back to 
Afghanistan for training and came back as a liquid explosive 
bomber attempting to blow up the New York subways.
    So that is the type of person we have to be looking for. 
The good side of that, I suppose, is that al-Qaeda feels it 
cannot launch a major attack from the outside, and it also 
means that they cannot send a type of fully trained and skilled 
terrorist to this country. The downside of it is that these 
terrorists are people living under the radar screen, who are 
very difficult to detect.
    On certain issues that I have a particular interest in, one 
is the threat of chemical and biological weapons, which is why 
I believe the Securing the Cities Program is so important, 
because it is very likely that the next attack against a major 
city in this country will be launched from the suburbs, similar 
to what happened in Madrid and London.
    A nightmare scenario is to have that attack involve a dirty 
bomb, which would put that metropolitan area basically off-
limits, besides the massive loss of human life that would 
result. So that is a program the Secretary and I discussed. We 
are particularly interested in pursuing that. But in any event, 
there can be no doubt that the threat against the United States 
remains extremely high, and we must remain vigilant and never 
allow the memories of 9/11 to fade.
    With that, I recognize the distinguished Ranking Member of 
the committee, Mr. Thompson form Mississippi, for any statement 
he may have.
    Mr. Thompson. Thank you very much, Mr. Chairman, for 
holding today's hearing. I want to join you in welcoming 
Secretary Napolitano and Director Leiter.
    But before we hear their testimony on the threat posed by 
terrorism, I want to encourage my colleagues to remember that 
our words travel far beyond these four walls. For several weeks 
we have seen protests across North Africa and the Middle East. 
In many ways these protests represent a demand for democracy. 
Yet we know that this is the same region that has been home to 
some of those who call for jihad.
    The United States, the world's only remaining superpower, 
occupies a providential position. If we take the right action, 
many of our concerns about a terrorist threat from this region 
could be significantly reduced. That is why I want to ensure 
that our examination of the global threat from terrorist 
activities does not complicate the job being done by the State 
Department and others in this administration. We must recognize 
that this predominantly Muslim area of the world is seeking to 
embrace democracy. Let us take care that nothing we do or say 
here today works to undermine those efforts.
    Since September 11, the threat of terrorist attacks has 
become an undeniable and unsettling feature of American 
society.
    However, combating the terrorist threat depends on accurate 
intelligence and an unbiased assessment of the size, scope, 
depth, and breadth of this threat.
    The lessons learned from past wars are clear. We cannot 
defeat an enemy that we do not know. Unreliable information, 
personal opinions or narrow agendas cannot inform our 
assessment of a threat to our Nation.
    We have seen the results of unreliable intelligence in 
Iraq. Our examination of a global threat must look at the 
vulnerabilities within commerce, transportation, and all 
aspects of our modern lives.
    We must find and eliminate these vulnerabilities, focus on 
what we can do, and keep the Nation safe.
    We can secure an airplane. We can secure the border. We can 
secure Federal buildings. We can secure a chemical plant or a 
nuclear facility.
    We must not become distracted from our basic mission to 
keep this Nation safe and maintain the security of the people.
    Finally, Mr. Chairman, I want to bid farewell to my 
colleague from California. She has demonstrated her commitment 
to the security of this Nation by her service on the 
intelligence committee and this committee.
    We will miss her, but we wish her happiness in her new 
undertaking.
    Again, I want to thank you.
    I want to thank the witnesses and look forward to hearing 
their testimony.
    [The statement of Ranking Member Thompson follows:]
        Prepared Statement of Ranking Member Bennie G. Thompson
    I want to encourage my colleagues to remember that our words travel 
far beyond these far walls.
    For several weeks, we have seen protests across North Africa and 
the Middle East. In many ways, these protests represent a demand for 
democracy. Yet we know that this same region has been home to some who 
have called for jihad.
    The United States--the world's only remaining super power--occupies 
a providential position. If we take the right action, many of our 
concerns about a terrorist threat from this region could be 
significantly reduced.
    That is why I want to ensure that our examination of the global 
threat from terrorist activity does not complicate the job being done 
by the State Department and others in this administration. We must 
recognize that this predominantly Muslim area of the world is seeking 
to embrace democracy. Let us take care that nothing we do or say here 
today works to undermine those efforts.
    Since September 11, the threat of terrorist attack has become an 
undeniable an unsettling feature of American society. However, 
combating the terrorist threat depends on accurate intelligence and an 
unbiased assessment of the size, scope, depth and breadth of the 
threat.
    The lessons learned from past wars are clear--we cannot defeat an 
enemy we do not know. Unreliable information, personal opinion, or 
narrow agendas cannot inform our assessment of a threat to our nation.
    We have seen the result of unreliable intelligence in Iraq. Our 
examination of the global threat must look at the vulnerabilities 
within commerce, transportation, and all aspects of our modern lives. 
We must find and eliminate these vulnerabilities, focus on what we can 
do, and keep this Nation safe.
    We can secure an airplane. We can secure the border. We can secure 
a Federal building.We can secure a chemical plant or a nuclear 
facility. We must not become distracted from our basic mission to keep 
this Nation safe and maintain the security of the people.

    Chairman King. Thank you, Mr. Thompson.
    Now we ask unanimous consent to recognize the gentlelady 
from California, Ms. Harman, 1 minute or as much time as she--
--
    Ms. Harman. Thank you, Mr. Chairman, and thank you, Ranking 
Member Thompson. Welcome to our witnesses.
    This is probably my last hearing on this committee. As all 
of you know, I know this, including the new Members, I have 
worked my heart out for many years in this Congress to keep our 
homeland safe.
    It has been an honor to be one of the initial Members of 
this committee and to have chaired its Intelligence 
Subcommittee for 4 years.
    I just want to thank all the Members, and I want to thank 
all the staff for the effort we have made so far together.
    To these two witnesses, who are both dear friends of mine, 
I want to thank you for the effort you make.
    Finally, let me urge that the best present you could all 
give me is to find a way to get more jurisdiction in this 
committee, which ought to be--and I know the Secretary agrees 
with this--the central point in the House of Representatives 
for oversight and focus on this critical subject of keeping our 
homeland safe.
    So, once again, thank you all for your good wishes. I am 
just moving down the street. I am really not leaving this 
place. Thank you very much.
    I yield back.
    Chairman King. Thank you, Jane.
    I remind the Members of the committee that opening 
statements may be submitted for the record.
    [The statement of Hon. Richardson follows:]
              Prepared Statement of Hon. Laura Richardson
    I would like to thank Chairman King and Ranking Member Thompson for 
convening this hearing today focusing on the ever-evolving threat of 
terrorist attacks against the homeland and the current state of 
America's efforts to counter these threats. I would like to thank our 
distinguished panel of witnesses for appearing before the committee 
today to discuss what progress has been made in this area and what else 
needs to be done.
    The events that occurred on the morning of September 11, 2001 had a 
profound impact on the lives of every American. The terrifying images 
of commercial airliners flying into the World Trade Centers are 
engraved in people's hearts and minds forever.
    Even though the attacks occurred nearly 10 years ago, we are 
constantly reminded of the effects of that day. Whether we're going 
through airport security to board a plane to see our family for the 
holidays or we're reuniting with a loved one who just returned from 
Afghanistan, possible threats and attacks continue to loom large over 
each and every aspect of our lives. For example, the events of that 
tragic morning forced us to recognize that we now live in a new world, 
with new threats, and that in order to combat these threats we must be 
willing to change and improve our tactics.
    After these devastating events, our Government initiated a number 
of unprecedented changes to our National security infrastructure in 
order to address these new threats. For instance, in 2002 the 
Department of Homeland Security was created with the stated goal of 
preparing, preventing, and responding to domestic emergencies, 
specifically terrorism. Additionally, we initiated sweeping 
improvements to our transportation security and made great strides in 
securing our Nation's borders and ports. And in the hills and valleys 
of Afghanistan, our soldiers continue to fight against al-Qaeda and its 
allies to ensure that those who wish to do or train others to do 
America harm are brought to justice.
    However, as we will discuss today, terrorism has become an ever-
evolving threat. We no longer face a threat from just one group of 
people or even from just one ideology. From Joe Stack, who flew a plane 
into an IRS building to Faishal Shazhad, the American citizen who 
attempted to blow up a car bomb in Times Square, we have learned that 
we must constantly be changing our tactics to ensure we have the 
ability to effectively combat and neutralize the changing methods of 
terrorists.
    As the representative of the 37th district, I understand the need 
for law enforcement to constantly modify and assess anti-terror 
strategies in order to protect potential targets in their communities. 
My Congressional district abuts the Nation's largest ports, contains 
oil refineries that produce more than 1 million barrels per day, and is 
home to a number of gas treatment and petrochemical facilities that 
present a target-rich environment for those seeking to do us harm. 
These challenges represent a new and emerging need for us to be 
increasingly more vigilant in understanding and combating the ever-
evolving threat of terrorism.
    Finally, in the pursuit of these counterterrorism efforts, we must 
constantly be aware of the fact that these strategies must not undercut 
the very principles they are attempting to defend. In our zeal to 
combat terrorism and protect our country, we must be careful not to 
wrongly accuse our people because of how they look, where they live, or 
their cultural background. To be safe, it is necessary that we also be 
smart. It is my hope and belief that my fellow colleagues will remain 
mindful of these important principles of which this great country was 
founded upon.
    Thank you again Mr. Chairman, Ranking Member Thompson, for 
convening this very important hearing today. I look forward to hearing 
from our distinguished panel of witnesses on these issues. I yield back 
my time.

    Chairman King. As I mentioned, we are pleased to have two 
very distinguished witnesses today on this topic most important 
in the entire Government as Secretary Napolitano, who is third 
Secretary of the Department of Homeland Security, overseeing 
over 200,000 employees.
    I have to say, on the record, that she has worked very 
closely with us. She does not let partisan lines divide us and 
she probably meets with us more than she wants to, but she 
meets on a regular basis.
    She is always on the phone, both with compliments and 
criticisms. I never know when I am going to get a call from the 
Secretary. But, again, she is totally dedicated. Whatever 
differences we have, are ones of policy and no one has ever 
questioned her dedication or her ability.
    Similarly, Mike Leiter has served as the head of National 
Counterterrorism Center for 3\1/2\ years under two Presidents, 
done a truly outstanding job in that capacity.
    Prior to that, he was in the military. He was assistant to 
the U.S. attorney and, again, absolutely dedicated to combating 
international terrorism and protecting the homeland.
    So I would ask that the witnesses, your entire statements 
will appear in the record. I have asked you to summarize the 
testimony but because of the importance of it, obviously, I am 
not going to cut you off.
    But I just ask you to keep in mind that many Members here 
today do have questions for you. With that, I now recognize 
Secretary Napolitano.
    Secretary Napolitano.

 STATEMENT OF HON. JANET NAPOLITANO, SECRETARY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Secretary Napolitano. Well, thank you, Chairman King, 
Ranking Member Thompson, Members of the committee, for the 
opportunity to appear before you today to testify on the 
terrorist threat to the United States and what the Department 
of Homeland Security and the NCTC are doing to combat it.
    I also have to echo the thoughts about Representative 
Harman. You will be missed. You have been totally dedicated to 
this effort. That effort has been producing results in terms of 
safety of the American people.
    I also have to echo your thoughts about the amount of 
Congressional oversight of this department. We added up the 
111th Congress, and our Department testified over 285 times. I 
testified over 20 times myself.
    I think that was the most of any Cabinet official. That, of 
course, requires a lot of preparation and work. We provided 
over 3,900 substantive briefings to different committees of the 
Congress.
    So Chairman King, Ranking Member Thompson, you and I have 
all discussed this. But that amount of oversight does have 
impact. So I thought I would just mention that.
    So let me turn now to the subject and the very important 
subject of today's hearing. There is no question that we have 
made many important strides in securing our country from 
terrorism since 9/11.
    But the threat continues to evolve. In some ways, the 
threat today may be at its most heightened state since the 
attacks nearly 10 years ago. In addition to the core al-Qaeda 
group, which still represents a threat to the United States, 
despite its diminished capabilities, we now face threats from a 
number of al-Qaeda associates that share its violent extremist 
ideology.
    Among these groups, we are also seeing an increased 
emphasis on recruiting Americans and Westerners to carry out 
attacks. These groups are trying to recruit people to carry out 
attacks.
    They have connections to the West, but who do not have 
strong ties to terrorist groups that could possibly tip off the 
intelligence community.
    They are also encouraging individuals in the West to carry 
out their own small-scale attacks, which require less of the 
coordination and planning that could raise red flags and lead 
to an attack disruption.
    This means that the threat has evolved in such a way that 
we have to add to our traditional counterterrorism strategies, 
which, in the past, have looked at the attack as coming from 
abroad.
    The realities of today's threat environment also means that 
State and local law enforcement officers will more often be in 
the first position to notice the signs of a planned attack.
    So our focus must be on aiding law enforcement and helping 
to provide them with the information and resources they need to 
secure their own communities from the threats they face.
    To this end, the Department of Homeland Security is working 
to counter violent extremism here at home by helping law 
enforcement use many of the same techniques and strategies that 
have proven successful in combating violence in Americans 
communities.
    DHS is moving forward in this area, based on the 
recommendations provided to us by the experts on the Homeland 
Security Advisory Council.
    We are releasing the first iteration of a community-
oriented policing curriculum for front-line officers, which is 
aimed at helping them to counter violent extremism in their 
communities.
    That curriculum is being focus grouped right now down at 
FLETC. We are sharing among State and local officers 
unclassified case studies about the size of violent extremism. 
We are helping communities to share with each other best 
practices about forming productive community partnerships.
    This way, law enforcement across can better know what works 
and what does not.
    We are helping law enforcement to reach out to American 
communities, to include them as partners in the effort to 
combat the presence of violent extremism in our country.
    Americans of all stripes resoundingly reject violence, 
which we must use as an important tool in countering violent 
extremism here at home.
    DHS is also expanding our own outreach to communities, and 
conducting these initiatives in a way consistent with 
Americans' rights and liberties.
    At the same time, we are building a new homeland security 
architecture that guards against the kinds of threats we are 
seeing right here at home.
    There are four major parts of this architecture I want to 
mention here today.
    The first are the joint terrorism task forces, which are 
led by the FBI. These task forces bring together agencies and 
jurisdictions to jointly investigate terrorism cases.
    DHS has hundreds of personnel supporting the 104 JTTFs 
across the country.
    The second is the network of State-and locally-run fusion 
centers that bring together agencies and jurisdictions to share 
information about the threat picture and what it means for our 
communities.
    This information sharing and analytical work complements 
the investigative work done by the JTTFs.
    DHS is intent on helping these fusion centers to develop 
their core capabilities to share and analyze information and to 
provide State and local law enforcement with useful, actionable 
information they can use to better protect their own 
communities.
    We are supporting fusion centers in many ways. Among them, 
we are providing DHS personnel to work in them and are 
providing properly cleared law enforcement personnel with 
classified threat information.
    The third is the Nation-wide Suspicious Activity Reporting 
initiative, or the SAR initiative. We are working closely with 
our partners at the Department of Justice on this project.
    The SAR initiative creates a standard process for law 
enforcement to identify, document, vet and share reports of 
suspicious incidents or behaviors associated with specific 
threats of terrorism.
    The reports then can be used to identify and share a 
broader trend.
    To date, the SAR initiative is under various stages of 
implementation at 33 sites that cover two-thirds of the 
American population. It should be fully implemented across the 
country by September.
    We are also working with DOJ and major law enforcement 
associations to provide SAR training to all front-line 
enforcement officers in the country. They will learn how to 
properly make, vet, share, and analyze reports in accordance 
with best practices and with regard to civil rights and civil 
liberties. Thousands of officers have already been trained, and 
we expect to train virtually all front-line officers in the 
country by this fall.
    The pilots of the SAR program have proven its tremendous 
value to law enforcement, and I believe it will be a critical 
tool in strengthening the ability of law enforcement to protect 
our communities from acts of terrorism.
    The fourth piece of the new homeland security architecture 
that I want to mention is the ``If You See Something, Say 
Something'' campaign. This campaign focuses on the positive 
role Americans can play in our own security. It focuses on 
fostering the kind of public vigilance that we know is critical 
to the success of community-oriented policing.
    We constantly see examples of why this sort of vigilance is 
so important, not just in the attempted Times Square bombing 
last May, but also just last month in Spokane, Washington, when 
city workers noticed a suspicious backpack and notified police 
before an MLK Day parade.
    DHS is rolling out this campaign across the country and in 
many important sectors, including passenger rail, Amtrak, 
sports stadiums--you may have seen it in the stadium at the 
Super Bowl--retail stores, and more.
    Now, on top of these four pieces, last month, I also 
announced changes to the National Terrorism Advisory System. We 
are replacing the old system of color-coded alerts with a new 
system that aims to provide more useful information to the 
public and to those who need it.
    This new system was developed collaboratively by a 
bipartisan group and with the consultation of law enforcement. 
It reflects our need to be ready, while also promising to tell 
Americans everything we can when new threat information affects 
them.
    In addition, to what I have mentioned here today, there are 
numerous other areas of action I have detailed in my written 
statement, Mr. Chairman, and ask that that statement be 
included in the record.
    Now, thank you again for inviting me to testify today. I 
look forward to working with this committee and its leadership 
in this new Congress as we continue to make progress in 
securing our Nation. I will be happy to take your questions 
once you have heard from Director Leiter.
    [The statement of Secretary Napolitano follows:]
                 Prepared Statement of Janet Napolitano
                            February 9, 2011
    Chairman King, Ranking Member Thompson, and Members of the 
committee: Thank you for the opportunity to testify today about the 
changing terrorist threat that the United States faces, and how the 
Department of Homeland Security is responding. I am glad to be here 
today with my colleague, Director Leiter. I look forward to continuing 
to work with this committee and its leadership in this new Congress, 
and I expect that, working together, we will continue to make great 
strides in securing our country.
                   the response to a changing threat
    Since 9/11, the United States has made important progress in 
securing our Nation from terrorism. Nevertheless, the terrorist threat 
facing our country has evolved significantly in the last ten years--and 
continues to evolve--so that, in some ways, the threat facing us is at 
its most heightened state since those attacks. This fact requires us to 
continually adapt our counterterrorism techniques to effectively 
detect, deter, and prevent terrorist acts.
    Following 9/11, the Federal Government moved quickly to build an 
intelligence and security apparatus that has protected our country from 
the kind of large-scale attack, directed from abroad, that struck us 
nearly 10 years ago. The resulting architecture yielded considerable 
success in both preventing this kind of attack and limiting, though not 
eliminating, the operational ability of the core al-Qaeda group that is 
currently based in the mountainous area between Afghanistan and 
Pakistan.
    Today, however, in addition to the direct threats we continue to 
face from al-Qaeda, we also face growing threats from other foreign-
based terrorist groups that are inspired by al-Qaeda ideology but have 
few operational connections to the core al-Qaeda group. Perhaps most 
crucially, we face a threat environment where violent extremism is not 
defined or contained by international borders. Today, we must address 
threats that are homegrown as well as those that originate abroad.
    One of the most striking elements of today's threat picture is that 
plots to attack America increasingly involve American residents and 
citizens. We are now operating under the assumption, based on the 
latest intelligence and recent arrests, that individuals prepared to 
carry out terrorist attacks and acts of violence might be in the United 
States, and they could carry out acts of violence with little or no 
warning.
    Over the past 2 years, we have seen the rise of a number of 
terrorist groups inspired by al-Qaeda ideology--including (but not 
limited to) al-Qaeda in the Arabian Peninsula (AQAP) from Yemen, al-
Shabaab from Somalia, and Tehrik-e Taliban Pakistan (TTP)--that are 
placing a growing emphasis on recruiting individuals who are either 
Westerners or have connections to the West, but who do not have strong 
links to terrorist groups, and are thus more difficult for authorities 
to identify. We saw this, for instance, in the case of Umar Farouk 
Abdulmutallab, who is accused of attempting to detonate explosives 
aboard a Detroit-bound plane on December 25, 2009; and Faisal Shahzad, 
who attempted to detonate a bomb in Times Square in May of last year. 
These groups are also trying to inspire individuals in the West to 
launch their own, smaller-scale attacks, which require less of the 
advanced planning or coordination that would typically raise red flags. 
The logic supporting these kinds of terrorist plots is simple: They 
present fewer opportunities for disruption by intelligence or law 
enforcement than more elaborate, larger-scale plots by groups of 
foreign-based terrorists.
    This threat of homegrown violent extremism fundamentally changes 
who is most often in the best position to spot terrorist activity, 
investigate, and respond. More and more, State, local, and Tribal 
front-line law enforcement officers are most likely to notice the first 
signs of terrorist activity. This has profound implications for how we 
go about securing our country against the terrorist threat, and 
requires a new kind of security architecture that complements the 
structure we have already built to protect America from threats coming 
from abroad.
    Over the past 2 years, the Department of Homeland Security has been 
working diligently to build this new architecture in order to defend 
against this evolving threat. There are two dimensions of this 
architecture that I will discuss today before I detail other major 
developments in our defenses against terrorism over the past year.
    The first part of our effort is working directly with law 
enforcement and community-based organizations to counter violent 
extremism at its source, using many of the same techniques and 
strategies that have proven successful in combating violence in 
American communities. Law enforcement at the State, local, and Federal 
levels are leveraging and enhancing their relationships with members of 
diverse communities that broadly and strongly reject violent extremism.
    Second, DHS is focused on getting resources and information out of 
Washington, DC and into the hands of State and local law enforcement, 
in order to provide them with the tools they need to combat the threats 
their communities face. Because State and local law enforcement are 
often in the best position to first notice the signs of a planned 
attack, our homeland security efforts must be interwoven in the police 
work that State, local, and Tribal officers do every day. We must make 
sure that officers everywhere have a clear understanding of the 
tactics, behaviors, and other indicators that could point to terrorist 
activity. Accordingly, DHS is improving and expanding the information-
sharing mechanisms by which officers on the beat are made aware of the 
threat picture and what it means for their communities. DHS is doing so 
in alignment with the vision of Congress and the direction the 
President has set for a robust information sharing environment. These 
efforts include providing training programs for local law enforcement 
to help them identify indicators of terrorist activity, as well as our 
work with our partners at the Department of Justice (DOJ) on the 
Nationwide Suspicious Activity Reporting Initiative, which has created 
a standardized system for reporting suspicious activity so that this 
information can be analyzed against National trends and shared across 
jurisdictions. And we are encouraging Americans to alert local law 
enforcement if they see something that is potentially dangerous through 
the ``If You See Something, Say Something'' campaign. The kind of 
vigilance that this campaign promotes has helped to foil terrorist 
plots in the past, including last month in Spokane, Washington.
    Taken together, these steps lay a strong foundation that police and 
their partners across the country can use to protect their communities 
from terrorism and violence. While many kinds of violent motivations 
threaten our security,\1\ these initiatives are helping to build a 
strong foundation of preparedness that will be embedded in the fabric 
of cities and towns across the Nation. Indeed, what we are building to 
secure America from every type of attack is a homeland security 
architecture that helps law enforcement everywhere protect their 
communities from any type of attack. This homeland security 
architecture will be paired with efforts to better understand the risk 
confronting the homeland, and to protect the privacy rights and civil 
liberties of all Americans.
---------------------------------------------------------------------------
    \1\ An examination of 86 terrorist cases in the United States from 
1999 to 2009 by the Institute for Homeland Security Solutions 
(``Building on Clues: Examining Successes and Failures in Detecting 
U.S. Terrorist Plots, 1999-2009,'' October 2010) shows that nearly half 
of those cases were related to al-Qaeda or al-Qaeda-inspired ideology, 
with the remainder due to a number of other violent extremist 
motivations.
---------------------------------------------------------------------------
                   countering violent extremism (cve)
    Since 2009, more than two dozen Americans have been arrested on 
terrorism-related charges. More broadly, a report last month from the 
New York State Intelligence Center, the fusion center for the State of 
New York, examining 32 major terrorism cases in the United States 
related to al-Qaeda-like ideology since 9/11, shows that 50 of the 88 
individuals involved in those plots were U.S. citizens at the time of 
their arrests, and among those citizens, a clear majority of were 
natural-born.\2\
---------------------------------------------------------------------------
    \2\ New York State Intelligence Center, ``The Vigilance Project: An 
Analysis of 32 Terrorism Cases Against the Homeland,'' December 2010.
---------------------------------------------------------------------------
    This report demonstrates why we must confront the threat of 
homegrown violent extremism in order to truly secure our country. We 
have a clear path forward to guide our efforts on this front. The 
Homeland Security Advisory Council's (HSAC) Countering Violent 
Extremism Working Group--comprised of security experts, elected 
officials, law enforcement leaders, community leaders, and first 
responders from around the country--has provided DHS with a number of 
recommendations on how to support local law enforcement and community-
based efforts to identify and combat sources of violent extremism.
    One major recommendation was to develop a CVE curriculum for State 
and local law enforcement that is focused on community-oriented 
policing, and that would help enable front-line personnel to identify 
activities that are indicators of potential terrorist activity and 
violence. We have now developed the first iteration of this curriculum, 
through partnership with the Major Cities Chiefs Association, the 
International Association of Chiefs of Police, the Department of 
Justice, the Counter Terrorism Academy, and the Naval Postgraduate 
School. The first training with this CVE curriculum will take place 
this month at DHS' Federal Law Enforcement Training Center (FLETC). Law 
enforcement from New York, Detroit, the Twin Cities, Chicago, 
Washington DC, and Los Angeles are invited to participate. This 
curriculum will continue to be developed and refined in consultation 
with our partners, and it will become widely available through regional 
policing institutes, in addition to FLETC. The eventual goal is to 
include this curriculum in the basic and in-service training that is 
provided to all new law enforcement personnel.
    In forming these kinds of community-based partnerships, it is 
important that communities learn from each other about what works in 
countering violent extremism. To support this effort, we work closely 
with a diverse collection of religious, ethnic, and community 
organizations. As the President said in his State of the Union address, 
in the face of violent extremism, ``we are responding with the strength 
of our communities.'' A vast majority of people in every American 
community resoundingly reject violence, and this certainly includes the 
violent, al-Qaeda-style ideology that claims to launch attacks in the 
name of their widely rejected version of Islam. We must use these facts 
as a tool against the threat of homegrown violent extremism. In 
conjunction with these communities and with the Department of Justice 
and the Program Manager for the Information Sharing Environment, we 
have published guidance on best practices for community partnerships, 
which has been distributed to local law enforcement across the country. 
DHS also holds regular regional meetings--which include State and local 
law enforcement, State and local governments, and community 
organizations--in Chicago, Detroit, Los Angeles, and Minneapolis. These 
regional meetings have enabled participants to provide and receive 
feedback on successful community-oriented policing and other programs 
aimed at preventing violence.
    DHS has also issued, and continues to compile, unclassified case 
studies that examine recent incidents involving terrorism so that State 
and local law enforcement, State and local governments, and community 
members can understand the warning signs that could indicate a 
developing terrorist attack. These case studies focus on common 
behaviors and indicators regarding violent extremism to increase 
overall situational awareness and provide law enforcement with 
information on tactics, techniques, and plans of international and 
domestic terrorists.
    DHS has also conducted ``deep dive'' sessions with the intelligence 
directors of major city police departments and with the leadership of 
State and major urban area fusion centers. DHS leaders meet with these 
individuals to discuss case studies, terrorist techniques, and current 
or novel indicators of terrorism, so that these leaders can inculcate 
these lessons in their own institutions.
    The United States Government as a whole is also working with our 
international allies who have experience with homegrown terrorism. The 
State Department has the lead for these international activities, but 
DHS is also working with foreign governments that share many of our 
security concerns. In the past several months, DHS has participated in 
bilateral conferences with partners in Canada and the United Kingdom on 
countering violent extremism, and these and additional conversations 
will continue to leverage lessons our partners have learned that may 
benefit law enforcement in the United States.
    We will also leverage grant programs to support training and 
technical assistance in building community partnerships and local 
participation in the SAR Initiative. Pending our fiscal year 2011 
appropriation, DHS, the Office of Community Oriented Policing Services 
(COPS) within DOJ, and the DOJ Bureau for Justice Assistance within the 
DOJ are working together to develop a joint grant resource guide for 
State and local law enforcement that leverages relevant funds and 
programs for community-oriented policing. At the same time, DHS is 
expanding engagement through our Privacy Office and our Office for 
Civil Rights and Civil Liberties to help DHS personnel and law 
enforcement on the ground better understand and identify threats and 
mitigate risks to our communities while ensuring these efforts respect 
the rights enjoyed by all Americans.
supporting law enforcement with the information and resources they need
    As I mentioned above, a major role of the Department of Homeland 
Security is to get information and resources out of Washington, DC and 
into the hands of law enforcement throughout the country. Local law 
enforcement, community groups, citizens, and the private sector play as 
much of a role in homeland security as the Federal Government. That is 
why we emphasize that ``homeland security starts with hometown 
security.''
    DHS has been working to expand our efforts to build the capacities 
of State, local, Tribal, and territorial law enforcement over the past 
2 years to support four main priorities. First, the information and 
intelligence provided to States and local authorities should be timely, 
actionable, and useful to their efforts to protect local communities 
from terrorism and other threats. Second, we should support State and 
local law enforcement efforts to recognize the behaviors and indicators 
associated with terrorism, and incorporate this knowledge into their 
day-to-day efforts to protect their communities from terrorist acts 
violent crime. Third, we should ensure that information about 
terrorism-related suspicious activity is shared quickly among all 
levels of government, so that information from the front lines can be 
factored into larger analytic efforts regarding the threat picture 
across the whole country. Fourth, we should encourage a ``whole of 
Nation'' approach to security, where officers on the ground are 
supported by an informed, vigilant public that plays a key role in 
helping to secure our country against new and evolving threats.
    We have dedicated significant resources to building four major 
pieces of our new homeland-security architecture to work towards these 
goals. The four pieces are Joint Terrorist Task Forces (JTTFs), State 
and major urban area fusion centers, the Nation-wide SAR Initiative, 
and the ``If You See Something, Say Something'' campaign.
Joint Terrorism Task Forces
    A critical piece of the homeland security architecture is the 
mechanism created to jointly investigate terrorism cases: the Joint 
Terrorism Task Forces led by the FBI. Hundreds of DHS personnel from 
eleven DHS components are currently working to support and participate 
in the 104 JTTFs across the country, all of which marshal resources 
from a number of sources to jointly conduct terrorism investigations. 
Our Nation's JTTFs have been successful in mitigating the terrorist 
threat in a number of instances, including in the investigation of 
Najibullah Zazi, who was arrested in 2009 for a terrorist plot to 
attack the New York transit system. In that case, several FBI field 
offices and their JTTFs (including the New York JTTF) contributed to 
efforts in identifying Zazi, conducting surveillance of him, and 
arresting Zazi before he could execute his attack, while also 
identifying Zazi's associates.
Fusion centers
    The second element is the network of State and major urban area 
fusion centers, which serve as focal points for information sharing 
among all levels of government. While JTTFs are investigative teams 
that bring agencies together to investigate particular terrorism cases, 
fusion centers are analytical and information-sharing entities that 
bring agencies together to assess local implications of threat 
information in order to better understand the general threat picture. 
These centers analyze information and identify trends to share timely 
intelligence with Federal, State, and local law enforcement including 
DHS, which then further shares this information with other members of 
the intelligence community. In turn, DHS provides relevant and 
appropriate threat information from the intelligence community back to 
the fusion centers. Today, there are 72 State- and locally-run fusion 
centers in operation across the Nation, up from a handful in 2006. Our 
goal is to make every one of these fusion centers a center of analytic 
excellence that provides useful, actionable information about threats 
to law enforcement and first responders. To do this, we have deployed 
68 experienced DHS intelligence officers to fusion centers across the 
country. We are committed to having an officer in each fusion center. 
DHS further supports fusion centers through the grants process, and, as 
fusion centers become fully operational, by deploying the Homeland 
Security Data Network to provide access to classified homeland security 
threat information to qualified personnel. Our support for fusion 
centers is focused on supporting them to fully achieve four baseline 
capabilities: the ability to receive classified and unclassified 
threat-related information from the Federal Government; the ability to 
assess the local implications of threat-related information through the 
use of risk assessments; the ability to further disseminate to 
localities threat information, so local law enforcement can recognize 
behaviors and indicators associated with terrorism; and the ability to 
share, when appropriate, locally-generated information with Federal 
authorities, in order to better identify emerging threats. The 
Department of Justice also work closely with fusion centers to ensure 
that the analytical work of fusion centers and the investigative work 
of JTTFs complement each other.
Nationwide Suspicious Activity Reporting Initiative
    The third piece of our homeland security architecture that I 
described earlier is the Nationwide Suspicious Activity Reporting, or 
SAR, Initiative, which DHS is working closely with DOJ in order to 
expand and improve. The Nationwide SAR Initiative creates a standard 
process for law enforcement to identify, document, vet, and share 
reports of suspicious incidents or behaviors associated with specific 
threats of terrorism. The reports then can be used to identify broader 
trends. To date, the SAR Initiative is under various stages of 
implementation at 33 sites that cover two-thirds of the American 
population, and it should be fully implemented across the country by 
September of this year.
    Importantly, this initiative also trains frontline, analytic, and 
executive personnel to recognize behaviors and indicators associated 
with terrorism, and to distinguish them from non-suspicious and legal 
behaviors. Thus far, more than 13,000 frontline Federal, State, and 
local law enforcement personnel across the country have received SAR 
training, and it is expected that virtually all frontline law 
enforcement personnel in the United States--hundreds of thousands of 
officers--will receive this training by the autumn of this year, thanks 
in large part to the partnership of the International Association of 
Chiefs of Police, the Major Cities Chiefs Association, the Major County 
Sheriffs' Association, and the National Sheriffs' Association. As part 
of the SAR Initiative, we are also installing information-sharing 
technologies within DHS that enable suspicious activity reports that 
are vetted by specially trained analysts to be forwarded to JTTFs and 
to be accessible to other fusion centers and DHS offices. In 
conjunction with the Nationwide SAR Initiative, DHS is also working to 
provide reporting capability directly to owners and operators of 
critical infrastructure.
    The initial stages of this program have underscored the value of 
this initiative. For example, over the 2 years it was involved in the 
pilot, one major city reported that implementation of the initiative 
resulted in seventeen reports related to an open FBI terrorism case. 
Over those same 2 years, a total of 393 reports were accepted by local 
JTTFs for further investigation, and local investigations resulted in 
90 additional arrests for weapons offenses and related charges. 
Separately, as the media has already reported, a Chicago Police 
Department officer filed a suspicious activity report in summer 2009 
about David Coleman Headley based on observations the officer made in a 
Chicago park. Headley was subsequently tied to the terrorist attacks in 
Mumbai in November of 2008 and was arrested on U.S. charges as well. In 
addition, fusion centers in New York, Florida, and Virginia used 
suspicious activity reports and other documents to identify associates 
of both Faisal Shahzad and Najibullah Zazi.
``If You See Something, Say Something''
    The fourth element of the homeland security architecture I 
referenced is the effort to spread awareness about the role the public 
plays in our security. The vigilance of Americans continues to help 
save lives and aid law enforcement and first responders. We saw this 
last month in the brave responses of many Americans in the moments 
after the shootings in Tucson, when members of the public subdued the 
shooter. We saw how the vigilance of the public can prevent an attack 
when a potentially deadly bomb was found prior to the start of a Martin 
Luther King Day parade in Spokane, Washington, after several city 
workers noticed a suspicious backpack and reported it to police. Of 
course, we all remember how last May, a street vendor alerted police to 
smoke coming from a car and helped to save lives during the attempted 
bombing in Times Square. Time and time again, we see vivid examples of 
why the American public's vigilance is a critical part of our security.
    To foster this vigilance, we have taken a public awareness campaign 
with a familiar slogan--``If You See Something, Say Something,'' 
initially used by New York's Metropolitan Transit Authority and funded 
in part by DHS--and are spreading it across the country. This program 
is based on those tenets of community-oriented policing that enable the 
public to work closely with local law enforcement to protect their 
communities from crime. The campaign outlines a positive role that 
Americans can play in our shared security. This public education effort 
is being expanded to places where the Nationwide SAR Initiative is 
already being implemented, so we can ensure that calls to authorities 
will be handled appropriately and in an environment where privacy and 
civil-liberties protections are in place. The campaign has already been 
launched in a number of State and local jurisdictions, as well as 
within several key sectors, including Amtrak, the general aviation 
community, the Washington Metro, New Jersey Transit, with the NFL and 
the NCAA, the commercial services sector at hotels and major landmarks 
such as the Mall of America in Minnesota, and National retailers like 
Walmart; and at Federal buildings protected by the Federal Protective 
Service.
    In addition to these four major pieces of our homeland security 
architecture, we are further enhancing our Nation's defenses against 
threats through reforms we have made to the DHS grants and the grant 
process. Our State and local partners everywhere are struggling to pay 
their bills and fund vital services. As a former governor, I know the 
hard choices they face. But it is critical to our National security 
that local communities maintain and continue to strengthen their public 
safety capabilities. In 2010, DHS awarded $3.8 billion to States, 
cities, law enforcement, and first responders to strengthen 
preparedness for acts of terrorism, major disasters and other 
emergencies. We are also changing the grant process to help them 
stretch these dollars even further. We have eliminated red tape by 
streamlining the grant process; expanded eligible expenses to fund 
maintenance and sustainability; and made it easier for fire grants to 
be put to work quickly to rehire laid-off firefighters and protect the 
jobs of veteran firefighters.
    We also are making significant changes to the National Terrorism 
Advisory System (NTAS), which will make the system a better tool for 
disseminating information about threats both to the public and to 
specific sectors. Last month, I announced the end of the old system of 
color-coded alerts, and that we are moving forward on a 90-day 
implementation period in which state and local governments, law 
enforcement agencies, private and non-profit sector partners, airports, 
and transport hubs will transition to this new system.
    Americans have a stake in our collective security, and we trust 
them to do their part in our shared responsibility for our Nation's 
security. The new system is built on the simple premise that when a 
threat develops that could impact the public, we will tell the public 
and provide whatever information we can.
    The new system reflects the reality that we must always be on alert 
and ready. When we have information about a specific, credible threat, 
we will issue a formal alert with as much information as possible. The 
alert may also be limited; depending on the nature of the threat, 
alerts may be issued only to law enforcement, or, for example, to a 
segment of the private sector such as shopping malls or hotels. 
Alternately, the alert may be issued more broadly to the American 
people. The alert may ask Americans to take certain actions, or to look 
for specific suspicious behavior. And alerts will have an end date.
    This new system was developed collaboratively. It was largely the 
work of a bipartisan task force that included law enforcement, former 
mayors and governors, and members of the previous administration. I 
look forward to continuing to work with our many partners and with this 
committee to improve this system as it moves forward.
                    strengthening vulnerable sectors
    In addition to building this foundation, DHS has also been at work 
strengthening sectors that have been--and continue to be--targets of 
attacks.
Commercial aviation
    The latest threat information indicates that commercial aviation is 
still the top target of terrorists, a fact that is underscored by the 
terrible bombing in Moscow's Domodedovo airport last month. The 
attempted terrorist attack on Christmas day 2009 illustrated the global 
nature of the threat to aviation. That incident involved a U.S. plane 
flying into a U.S. city, but it endangered individuals from at least 17 
foreign countries. The alleged attacker, Umar Farouk Abdulmutallab, is 
a Nigerian citizen educated in the United Kingdom. He received training 
in terrorist tactics in Yemen, purchased his ticket in Ghana, and flew 
from Nigeria to Amsterdam before departing for Detroit.
    After this attempted terrorist attack, the U.S. Government moved 
quickly to strengthen security. We took immediate steps to bolster 
passenger screening, while addressing larger systemic issues on a 
global scale. We launched a global initiative to ensure international 
aviation security efforts were stronger, better coordinated, and 
designed to meet the current threat environment. With the International 
Civil Aviation Organization (ICAO), the United Nations body responsible 
for air transport, we held five regional aviation security summits 
which resulted in five major regional aviation security declarations, 
and worked closely with U.S. and international airline and airport 
trade associations and airline CEOs on a coordinated, international 
approach to enhancing aviation security. These meetings culminated in 
the ICAO Triennial Assembly at the beginning of October, where the 
Assembly adopted a historic Declaration on Aviation Security, which 
forges a historic new foundation for aviation security that will better 
protect the entire global aviation system from evolving terrorist 
threats.
    DHS coupled these international efforts with significant advances 
in domestic aviation security. We have deployed additional behavior 
detection officers, air marshals, and explosives-detection canine 
teams, among other measures, to airports across the country. Through 
the Recovery Act, we accelerated the purchase of Advanced Imaging 
Technology machines for deployment to airports around the country, and 
currently have 486 deployed. The President's fiscal year 2011 budget 
request would provide funding for a further 500 AIT machines for 
deployment to our Nation's airports. We are also purchasing and 
deploying more portable explosive detection machines, Advanced 
Technology X-ray systems, and bottled liquid scanners. In addition, in 
April 2010, the United States implemented new, enhanced security 
measures for all air carriers with international flights to the United 
States that use real-time, threat-based intelligence to better mitigate 
the evolving terrorist threats. And in November, DHS achieved a major 
aviation security milestone called for in the 9/11 Commission Report, 
as 100 percent of passengers on flights within or bound for the United 
States are now being checked against Government watch lists.
The global supply chain
    In addition to our on-going efforts to enhance international 
aviation security, last month I announced a new partnership with the 
World Customs Organization to enlist other nations, international 
bodies, and the private sector to strengthen the global supply chain. 
As illustrated this past October by a thwarted plot to conceal 
explosive devices onboard cargo aircraft bound for the United States 
from Yemen, the supply chain is a target for those who seek to disrupt 
global commerce.
    Securing the global supply chain is an important part of securing 
both the lives of people around the world as well as the stability of 
the global economy. Beyond the immediate impact of a potential attack 
on passengers, transportation workers and other innocent people, the 
longer-term consequences of a disabled supply chain could quickly 
snowball and impact economies around the world. One consequence, for 
example, could be that people across the world would find empty store 
shelves for food, serious shortages in needed medical supplies, or 
significant increases in the cost of energy.
    To secure the supply chain, we first must work to prevent 
terrorists from exploiting the supply chain to plan and execute 
attacks. This means, for example, working with customs agencies and 
shipping companies to keep precursor chemicals that can be used to 
produce improvised explosive devices (IEDs) from being trafficked by 
terrorists. We must also protect the most critical elements of the 
supply chain, like central transportation hubs, from attack or 
disruption. This means strengthening the civilian capacities of 
governments around the world, including our own, to secure these hubs; 
establishing global screening standards; and providing partner 
countries across the supply chain with needed training and technology. 
Finally, we must make the global supply chain more resilient, so that 
in case of disruption it can recover quickly. Trade needs to be up and 
running, with bolstered security, if needed, as quickly as possible 
after any kind of event.
    I am confident the global community can make great strides on all 
of these fronts in 2011. Just as the nations of the world were able to 
make historic progress on enhancing international aviation security in 
2010, so too can we make global supply chain security stronger, 
smarter, and more resilient this year.
Surface transportation
    DHS has also taken major steps to strengthen security for surface 
transportation, including passenger rail and mass transit. Many of the 
steps I have already described are especially important in helping to 
secure that environment. We conducted the initial launch of the 
National ``If You See Something, Say Something'' campaign at Penn 
Station in New York, in conjunction with Amtrak. The Nationwide SAR 
Initiative is also geared toward detecting signs of terrorism in mass 
transit hubs and vehicles like train stations, buses, or rail cars. 
This initiative includes as law enforcement partners the Amtrak Police 
Department as well as all police agencies serving rail networks in the 
Northeast corridor, providing officers to use this upgraded reporting 
system to refer suspicious activity to DHS and the FBI. This is in 
addition to the intelligence sharing that the Transportation Security 
Administration (TSA) conducts with Amtrak on an on-going basis, and the 
information-sharing work conducted by the Public Transportation 
Information Sharing Analysis Center. TSA special operation teams, known 
as Visible Intermodal Prevention and Response (VIPR) teams, work with 
local partners to support several thousand operations every year. The 
expansion of the Nation-wide SAR Initiative will continue to include 
our partners in the transportation sector.
    We are moving forward on the implementation of the 20 
recommendations made in the Surface Transportation Security Assessment, 
released in April as part of an administration-wide effort to address 
surface transportation security. DHS has the lead on 19 of these 
recommendations; to date we have completed five of the recommendations 
\3\ and are making significant progress toward implementing the 
remainder. We are also in the rulemaking process to require background 
checks and security training for public transit employees, and to 
require vulnerability assessments and security plans for high-risk 
public transportation agencies, railroads, and bus operators. All of 
these actions will help to address a landscape where the threats to 
these systems are clear.
---------------------------------------------------------------------------
    \3\ The completed recommendations are: Number 1, Cross Modal Risk 
Analyses; Number 3, Evaluate and Rank Critical Surface Transportation 
Systems and Infrastructure; Number 12, Gap Analysis of Existing Risk 
Tools and Methodologies; Number 15, Secure<SUP>TM</SUP> and 
FutureTECH<SUP>TM</SUP> Programs; and Number 18, Transportation 
Research & Development Input Process.
---------------------------------------------------------------------------
Cybersecurity
    At the same time that we work to strengthen the security of our 
critical physical infrastructure, we are also working to secure 
cyberspace--an effort that requires coordination and partnership among 
the multitude of different entities in both the Government and private 
sector that share responsibility for important cyber infrastructure. 
Indeed, in just the last year, we have seen the full spectrum of cyber 
threats, from denial-of-service attacks and spamming to attacks with 
spyware. However, we have made--and are continuing to make--substantial 
progress at building the capability necessary to address cyber 
incidents on a National level.
    DHS has expanded its capabilities to further secure cyberspace. 
Last year, we entered into a new agreement with the Department of 
Defense and National Security Agency to enhance our capabilities to 
protect against threats to civilian and military computer systems and 
networks. Through this agreement, personnel from DHS and the DOD are 
now able to call upon the resources from each other and the NSA in 
order to respond to attacks against our interlinked networks. We also 
continue to expand the number of cyber experts working for DHS, a 
number which has increased about fivefold in the past 2 years.
    The Cyber Storm III exercise was another milestone in 2010. This 
exercise simulated a large-scale cyber attack on our critical 
infrastructure and involved participants from DHS and seven Cabinet-
level Federal agencies, but also from 13 other countries and 11 States. 
It represented an important test for the country's National Cyber 
Incident Response Plan.
    DHS has opened and is now growing the National Cybersecurity and 
Communications Integration Center (NCCIC), which is a 24/7 watch-and-
warning center that works closely with both government and private-
sector partners. In 2011, DHS will complete the deployment of the 
EINSTEIN 2 threat detection system across the Federal space. In 
addition, the Department will continue to develop, and begin 
deployment, of EINSTEIN 3, which will provide DHS with the ability to 
automatically detect and counter malicious cyber activity.
                               conclusion
    The terrorist threat to the homeland is, in many ways, at its most 
heightened state since 9/11. This threat is constantly evolving, and, 
as I have said before, we cannot guarantee that there will never be 
another terrorist attack, and we cannot seal our country under a glass 
dome. However, we continue to do everything we can to reduce the risk 
of terrorism in our Nation.
    Our efforts are guided by a simple premise: To provide the 
information, resources, and support that the hardworking men and women 
of DHS, our Federal partners, and State, local, Tribal, and territorial 
first responders need to effectively prevent and recover from acts of 
terrorism and to mitigate the threats we face. This support helps to 
build the kind of foundation that can guard against--and bounce back 
from--any kind of attack, from newly emerging threats to specific 
sectors that have been terrorist targets in the past. Working with our 
Federal partners, law enforcement across the country, the private 
sector, and the American public, we are making great progress in 
addressing today's evolving terrorist threats.
    Chairman King, Ranking Member Thompson, and Members of the 
committee: Thank you for inviting me to testify today. I can now take 
your questions.

    Chairman King. Thank you, Secretary Napolitano. Your 
statement will be made part of the record, your full statement.
    I will now recognize Director Mike Leiter. Director Leiter.

      STATEMENT OF MICHAEL E. LEITER, DIRECTOR, NATIONAL 
                    COUNTERTERRORISM CENTER

    Mr. Leiter. Thank you, Chairman King, Ranking Member 
Thompson, Members of the committee. Thank you for having me, 
with Secretary Napolitano.
    I hate to sound like a broken record, but I do want to add 
my personal thanks to Congresswoman Harman, who has been a 
leader in intelligence and homeland security for many years 
now.
    She has been a staunch supporter of NCTC. The one anecdote 
I would pass along beyond the laws you have worked on, the 
oversight you have provided, Congresswoman Harman came out and 
spent about 2\1/2\ hours with a packed room of analysts, about 
50 or 60 men and women, to talk to them about what it was like 
to be a senior woman in National security. Those young analysts 
came out glowing about their experience. I think it was the 
personal touch that you provided which helped, I think, inspire 
another generation of National security leaders. So thank you 
very much.
    I also want to thank the committee for coming out and 
visiting NCTC. I think the opportunity to see young analysts 
and the ways in which NCTC and DHS are so entwined in our work 
on a daily basis was a great opportunity.
    As Chairman King noted, the past 2 years have obviously 
highlighted the many dangers associated with a geographically 
and ideologically diverse group of terrorists that seek to harm 
the United States and our allies. These threats are not only 
from outside our borders, but increasingly from within.
    Although we have made enormous strides in combating and 
reducing the likelihood of some complex catastrophic attacks by 
al-Qaeda from Pakistan, we continue to face threats from many 
other corners.
    I will briefly outline those remarks and, again, ask that 
my full record be made part of the--my full statement be made 
part of the record. To begin, I will touch on the threats that 
we face. Today, al-Qaeda and its allies in Pakistan still pose 
a threat, despite degradation suffered from extensive and 
sustained counterterrorism operations over the past several 
years and accelerated over the past 2 years.
    Al-Qaeda, we believe in Pakistan is at one of its weakest 
points in the past decade, and it is continuously being forced 
to react to a reduced safe haven and personnel losses.
    But it remains a very determined enemy. Of course, Osama 
bin Laden and Ayman al-Zawahiri maintain al-Qaeda's unity and 
strategic focus on the United States and other Western targets. 
At least five disrupted plots in Europe during the past 5 
years, including the plot to attack U.S. airliners transiting 
between the United Kingdom and the United States, in addition 
to disrupted cells in the United Kingdom, Norway, and attacks 
against newspaper offices in Denmark demonstrate al-Qaeda in 
Pakistan's steadfast intentions.
    We are also concerned about future homeland attacks from 
one of al-Qaeda's key allies within the Federally Administered 
Tribal Areas, or the FATA, Tehrik-i-Taliban Pakistan, TTP, the 
group that trained Faisal Shahzad, the Times Square bomber from 
May 1 of last year, as well as the potential threat from other 
al-Qaeda original allies within the Pakistan and Afghanistan 
region.
    Also on Pakistan, we remain focused on Lashkar-e-Taiba, the 
group behind the 2008 Mumbai attacks, which remains a threat to 
a variety of interests in South Asia. Although LET has not yet 
conducted attacks in the West, it does have individuals who 
have been trained who have been involved in attacks, and it 
could pose a threat to the homeland and Europe, in addition to 
destabilizing South Asia more broadly.
    Of course, we continue to view Yemen as a key base of 
operations from which al-Qaeda in the Arabian Peninsula can and 
has planned and executed attacks. Over the past year, AQAP 
expanded operations against the homeland, including, of course, 
the December 2009 attack, and its follow-on effort to down two 
U.S.-bound cargo planes in October 2010.
    In addition to these specific attacks, A.Q. has made 
several appeals last year to Muslims to conduct attacks on 
their own initiative. Specifically, over the past year, AQAP 
released four issues of its magazine, English magazine Inspire, 
which attempts to persuade adherence to launch attacks on their 
own in the West.
    East Africa remains a key operating area for al-Qaeda 
associates, as well. Of course, last year, for the first time, 
they struck outside of Somalia, killing 74, including one 
American in Uganda, and they continue to attract violent 
extremists from across the globe, including from the United 
States.
    Now, these were mostly threats from outside the country. As 
the Chairman noted, we are extremely concerned with homegrown 
violent extremists here in the United States. Plots disrupted 
in Washington, DC, Oregon, Alaska, and Maryland during the past 
year were indicative of a common cause rallying independent 
extremists to attack the homeland. Homegrown violent extremists 
have yet to demonstrate a sophisticated ability, but as Fort 
Hood demonstrated, attacks need not be sophisticated to be 
quite deadly.
    Now, although time doesn't permit me to go into all of the 
threats we watch, I would just like to highlight, in addition 
to these threats, we continue to watch al-Qaeda in North Africa 
and Iraq, Hezbollah and its targeting of U.S. interests 
globally, and also other terrorist groups, including Greek 
anarchists that recently sent letter bombs to embassies in Rome 
and elsewhere.
    In light of this changing dynamic, we have significantly 
evolved our capabilities to try to reduce the likelihood of a 
successful attack. Most notably, as you saw last week or 2 
weeks ago in your visit, NCTC established a pursuit group that 
is designed to track down tactical leads that can lead to the 
discovery of threats and against the homeland. As I hope you 
saw, the pursuit group has repeatedly identified and passed to 
our operational partners like DHS key leads which might 
otherwise have been missed.
    We are, of course, also focused on continuing to lead 
information integration across the U.S. Government for 
counterterrorism purposes. We have always had access to a 
plethora of databases, but in conjunction with DHS, FBI, and 
others, we have further developed over the past year an 
information technology architecture which aims to improve our 
ability to detect this new sort of threat.
    Finally, as this committee knows quite well, 
counterterrorism efforts are not just about stopping attacks, 
but also trying to address the upstream factors that drive 
violent extremism. Our focus as a general matter is 
undercutting the terrorist narrative and building safe and 
resilient communities, not NCTC operationally, but with our 
partners like DHS, in conjunction with other parts of the U.S. 
Government.
    Specifically, on behalf of the National security staff, we 
are coordinating interagency planning in partnership with 
departments and agencies across the U.S. Government. Where 
appropriate, we are helping to support and coordinate the 
Federal Government's engagement with American communities where 
terrorists are already focusing their recruiting efforts.
    In my view, while government has an important role in 
implementing these strategies, we along with DHS view the 
private-sector and community institutions as key players in 
countering radicalization. We believe strongly that addressing 
radicalization requires community-based solutions service to 
local dynamics and needs.
    In coordination with FBI and DHS, NCTC developed a 
community awareness briefing that conveys unclassified 
information about the realities of current terrorist 
recruitment to the homeland on the internet so communities can 
be mobilized to fight the same fight that we are involved in.
    Chairman King, Ranking Member Thompson, and all the Members 
of the committee, thank you very much again for having us here 
today. As you know well, despite the improvements, perfection 
in this endeavor is not possible. We are working every day, 24 
hours a day, tirelessly to try to stop the next attack, but we 
cannot guarantee 100 percent safety.
    In this regard, I believe we must continue to foster 
domestic resilience while highlighting the ultimate futility of 
al-Qaeda's fight. Without your leadership--and, again, without 
Ms. Harman's leadership--we would not have made the strides 
that we have. I very much look forward to taking your questions 
and working with you for years to come. Thank you.
    [The statement of Mr. Leiter follows:]
                Prepared Statement of Michael E. Leiter
                            February 9, 2011
                              introduction
    Chairman King, Ranking Member Thompson, distinguished Members of 
the committee, thank you for the opportunity today to discuss the 
current state of the terrorist threat to the Homeland and the U.S. 
Government's efforts to address the threat. I am pleased to join 
Secretary of Homeland Security Janet Napolitano here today--one of the 
National Counterterrorism Center's (NCTC) closest and most critical 
partners.
    The past 2 years have highlighted the growing breadth of terrorism 
faced by the United States and our allies. Although we and our partners 
have made enormous strides in reducing some terrorist threats--most 
particularly in reducing the threat of a complex, catastrophic attack 
by al-Qaeda's senior leadership in Pakistan--we continue to face a 
variety of threats from other corners. These of course include those 
commonly referred to as ``homegrown terrorists'' who have long-standing 
ties to the United States and who are often inspired by al-Qaeda's 
ideology. While these newer forms of threats are less likely to be of 
the same magnitude as the tragedy this Nation suffered in September 
2001, their breadth and simplicity make our work all the more 
difficult.
    In response, and especially since the failed December 25 attack of 
2009, the counterterrorism community broadly and NCTC specifically have 
pursued numerous reforms to reduce the threat to the American people 
and our allies. These reforms address a wide variety of areas, 
including prioritizing CT activities across the intelligence community, 
clarifying counterterrorism analytic responsibilities, and improving 
information integration. Perhaps most notably, NCTC created a new 
analytical effort, the Pursuit Group, to help track down tactical leads 
that can lead to the discovery of threats aimed against the Homeland or 
U.S. interests abroad. None of these reforms are a panacea, but in 
combination I believe they reduce the likelihood of a successful 
attack.
    Finally, while defending against current threats we must remain 
focused on denying al-Qaeda and its affiliates a new generation of 
recruits--especially in the homeland. In that light, NCTC has remained 
at the forefront of identifying, integrating, coordinating, and 
assessing efforts that aim to undercut the terrorism narrative and 
prevent the radicalization and mobilization of new additional 
terrorists.
  al-qaeda and its allies in pakistan pose threat despite degradation
    While al-Qaeda in Pakistan remains focused on conducting attacks in 
the West, the group must balance that intent with concerns for its 
security. Sustained CT pressure on al-Qaeda in Pakistan has degraded 
the group's capabilities, leaving it at one of its weakest points in 
the past decade.
  <bullet> During the past 2 years, al-Qaeda's base of operations in 
        the Federally Administered Tribal Areas (FATA) has been 
        restricted considerably, limiting its freedom of movement and 
        ability to operate. The group has been forced to react 
        continuously to personnel losses that are affecting the group's 
        morale, command and control, and continuity of operations.
    Al-Qaeda continues to prize attacks against the U.S. Homeland and 
our European allies above all else. We remain vigilant to the 
possibility that despite the degradation of the organization, al-Qaeda 
already may have deployed operatives to the West for attacks. Al-
Qaeda's senior-most leaders--Usama Bin Ladin and Ayman al-Zawahiri--
maintain al-Qaeda's unity and strategic focus on U.S. targets, 
especially prominent political, economic, and infrastructure targets.
  <bullet> Europe is a key focus of al-Qaeda plotting. At least five 
        disrupted plots during the past 5 years--including a plan to 
        attack airliners transiting between the United Kingdom and the 
        United States, disrupted cells in the United Kingdom and 
        Norway, and two disrupted plots to attack a newspaper office in 
        Denmark--demonstrate al-Qaeda's steadfast intentions.
    We remain concerned about future Homeland attacks from one of al-
Qaeda's key allies in the FATA, Tehrik-e-Taliban Pakistan (TTP), the 
group that trained the bomber who failed in his attempt in 2010 to 
detonate a bomb in Times Square. TTP is an alliance of militant groups 
that formed in 2007 with the intent of imposing its interpretation of 
sharia law in Pakistan and expelling the Coalition from Afghanistan. 
TTP leaders maintain close ties to senior al-Qaeda leaders, providing 
critical support to al-Qaeda in the FATA and sharing some of the same 
global violent extremist goals.
    Other al-Qaeda allies in Pakistan, the Haqqani network and Harakat-
ul Jihad Islami (HUJI), have close ties to al-Qaeda. Both groups have 
demonstrated the intent and capability to conduct attacks against U.S. 
persons and targets in the region, and we are looking closely for any 
indicators of attack planning in the West.
    Lashkar-e-Tayyiba (LT)--another Pakistan-based Sunni extremist 
group--poses a threat to a range of interests in South Asia. Its 
previous attacks in Kashmir and India have had a destabilizing effect 
on the region, increasing tensions and brinkmanship between New Delhi 
and Islamabad, and we are concerned that it is increasing its 
operational role in attacks against Coalition forces in Afghanistan. 
Although LT has not previously conducted attacks in the West, LT--or 
individuals who trained with LT in the past--could pose a threat to the 
Homeland and Europe, particularly if they were to collude with al-Qaeda 
operatives or other like-minded terrorists.
       the increasing threat from al-qaeda's regional affiliates
    As al-Qaeda's affiliates continue to develop and evolve, the threat 
posed by many of these groups to U.S. interests abroad and the Homeland 
has grown. The affiliates possess local roots and autonomous command 
structures and represent a talent pool that al-Qaeda leadership may tap 
to augment operational efforts.
    Al-Qaeda in the Arabian Peninsula (AQAP).--We continue to view 
Yemen as a key battleground and regional base of operations from which 
AQAP can plan attacks, train recruits, and facilitate the movement of 
operatives. We assess AQAP remains intent on conducting additional 
attacks targeting the Homeland and U.S. interests overseas and will 
continue propaganda efforts designed to inspire like-minded individuals 
to conduct attacks in their home countries.
  <bullet> AQAP has orchestrated many attacks in Yemen and expanded 
        external operations to Saudi Arabia and the Homeland, including 
        the assassination attempt on a Saudi Prince in August 2009, the 
        attempted airliner attack during December 2009, and its follow-
        on effort to down two U.S.-bound cargo planes in October 2010 
        using explosives-laden printer cartridges.
  <bullet> Anwar al-Aulaqi, a dual U.S.-Yemeni citizen and a leader 
        within AQAP, played a significant role in the attempted 
        airliner attack and was designated in July as a specially 
        designated global terrorist under E.O. 13224 by the U.S. 
        Government and the UN's 1267 al-Qaeda and Taliban Sanctions 
        Committee. Al-Aulaqi's familiarity with the West and his 
        operational role in AQAP remain key concerns for us.
  <bullet> AQAP's use of a single operative using a prefabricated 
        explosive device in their first attempted Homeland attack, and 
        the lack of operatives associated with their second attempted 
        attack, minimized its resource requirements and reduced visible 
        signatures that often enable us to detect and disrupt plotting 
        efforts.
    Al-Qaeda Operatives in East Africa and Al-Shabaab.--East Africa 
remains a key operating area for al-Qaeda associates and the Somalia-
based terrorist and insurgent group al-Shabaab. Some al-Shabaab leaders 
share al-Qaeda's ideology, publicly praising Usama Bin Ladin and 
requesting further guidance from him, although Somali nationalist 
themes are also prevalent in their public statements and remain one of 
the primary motivations of rank-and-file members of al-Shabaab. The 
Somalia-based training program established by al-Shabaab and al-Qaeda 
continues to attract foreign fighters from across the globe, to include 
recruits from the United States. At least 20 U.S. persons--the majority 
of whom are ethnic Somalis--have traveled to Somalia since 2006 to 
fight and train with al-Shabaab. In June and July 2010, four U.S. 
citizens of non-Somali descent were arrested trying to travel to 
Somalia to join al-Shabaab.
  <bullet> Omar Hammami, a U.S. citizen who traveled to Somalia in 2006 
        and is now believed to be one of al-Shabaab's most prominent 
        foreign fighters, told the New York Times last year that the 
        United States was a legitimate target for attack. The potential 
        for Somali trainees to return to the United States or locations 
        in the West to launch attacks and threaten Western interests 
        remains a significant concern.
  <bullet> This past year, al-Shabaab claimed responsibility for its 
        first transnational attack outside of Somalia--the suicide 
        bombings in Kampala, Uganda in July that killed 74 people 
        including one American. Al-Shabaab leaders have vowed 
        additional attacks in the region.
    Al-Qaeda in the Lands of the Islamic Maghreb (AQIM).--AQIM is a 
threat to U.S. and other Western interests in North and West Africa, 
primarily through kidnap-for-ransom operations and small-arms attacks, 
though the group's recent execution of several French hostages and 
first suicide bombing attack in Niger last year highlight AQIM's 
potential attack range. Disrupted plotting against France and 
publicized support for Nigerian extremists reveal the group's 
continuing aspirations to expand its influence. Sustained Algerian 
efforts against AQIM have significantly degraded the organization's 
ability to conduct high-casualty attacks in the country and compelled 
the group to shift its operational focus from northern Algeria to the 
vast, ungoverned Sahel region in the south.
    Al-Qaeda in Iraq (AQI).--On-going CT successes against AQI--to 
include the deaths of the group's top two leaders last year in a joint 
Iraqi/U.S. military operation--have continued to put pressure on the 
organization. However, despite these on-going setbacks, AQI remains a 
key al-Qaeda affiliate and has maintained a steady attack tempo within 
Iraq, serving as a disruptive influence in the Iraqi Government 
formation process and a threat to U.S. forces. We are concerned that 
AQI remains committed to al-Qaeda's global agenda and intent on 
conducting external operations, to include in the U.S. Homeland.
             homegrown extremist activity remains elevated
    In addition to threats emanating from outside the country, we also 
remain concerned that homegrown violent extremists (HVEs) continue to 
pose an elevated threat to the Homeland. Plots disrupted in Washington, 
DC, Oregon, Alaska, and Maryland during the past year were unrelated 
operationally, but indicate that the ideology espoused by al-Qaeda and 
its adherents is motivating, or being used as a justification by, 
individuals to attack the Homeland. Key to this trend has been the 
development of a U.S.-specific narrative, particularly in terrorist 
media available on the internet that motivates individuals to violence. 
This narrative--a blend of al-Qaeda inspiration, perceived 
victimization, and glorification of past Homegrown plotting--addresses 
the unique concerns of like-minded, U.S.-based individuals. HVEs 
continue to act independently and have yet to demonstrate the 
capability to conduct sophisticated attacks, but as Fort Hood shooter 
Nidal Hasan demonstrated, attacks need not be sophisticated to be 
deadly.
  <bullet> Similar to 2009, arrests of HVEs in the United States in 
        2010 remained at elevated levels, with four plots disrupted in 
        the Homeland. The individuals involved were motivated to carry 
        out violence on the basis of a variety of personal rationales, 
        underscoring the continued intent by some HVEs to take part in 
        violence despite having no operational connections to 
        terrorists overseas.
  <bullet> Increasingly sophisticated English-language propaganda that 
        provides extremists with guidance to carry out Homeland attacks 
        remains easily accessible via the internet. English-language 
        web forums also foster a sense of community and further 
        indoctrinate new recruits, both of which can lead to increased 
        levels of violent activity.
  <bullet> The prominent profiles of U.S. citizens within overseas 
        terrorist groups--such as Omar Hammami in al-Shabaab and Anwar 
        al-Aulaqi in AQAP--may also provide young U.S.-based 
        individuals with American role models in groups that in the 
        past may have appeared foreign and inaccessible. These 
        individuals have also provided encouragement for homegrown 
        extremists to travel overseas and join terrorist organizations.
             al-qaeda and affiliates sustain media campaign
    Al-Qaeda senior leaders issued significantly fewer video and audio 
statements in 2010 than 2009. As previously, public al-Qaeda statements 
rarely contained a specific threat or telegraphed attack planning, but 
they continue to provide a window into the group's strategic 
intentions.
    Al-Qaeda spokesmen continued to call for violence against Western 
targets, including appeals last year for Muslims to conduct attacks on 
their own initiative, and they reiterated assertions that U.S. outreach 
to Muslims is deceptive. Bin Ladin, al-Zawahiri, and American spokesman 
Adam Gadahn also released statements that decried the evils of climate 
change and expressed sympathy for Muslims affected by severe flooding 
in Pakistan, probably in an effort to bolster the group's image among 
mainstream Muslims.
    AQAP since September has released three issues of Inspire--the 
group's English-language on-line magazine produced by its media wing--
including a ``Special Edition'' in November that glorified the group's 
disrupted 29 October cargo plot.
          our evolving response: lessons from 12/25 and beyond
    In light of this dynamic terrorist landscape, the CT Community has 
significantly evolved to improve our chances of disrupting terrorist 
attacks before they occur and reducing the likelihood that attacks will 
be successful. These reforms address a wide variety of areas, including 
prioritizing CT reforms across the intelligence community, clarifying 
counterterrorism analytic responsibilities, improving our ability to 
develop tactical leads like the identity of a future Umar Farouk 
Abdulmutallab by creating NCTC's ``Pursuit Group,'' expanding 
watchlisting resources and modifying watchlisting criteria, 
accelerating information integration across key interagency data 
holdings, and continuing to prioritize sharing of intelligence with 
State, local, and Tribal partners.
    With respect to our improved ability to develop tactical leads, 1 
year ago I directed the creation of a new ``Pursuit Group'' within 
NCTC, which now focuses exclusively on information that could lead to 
the discovery of threats aimed against the Homeland or U.S. interests 
abroad. The Pursuit Group's six analytical teams work with our IC 
partners to identify and examine as early as possible leads that could 
become terrorist threats; to pursue unresolved and non-obvious 
connections; and to inform in a timely manner appropriate U.S. 
Government entities for action. Although I cannot discuss these 
findings in an unclassified setting, I can inform the committee that 
the Pursuit Group has repeatedly identified key leads that would have 
otherwise been missed amidst a sea of uncorrelated data.
    We are also continuing to implement revamped watchlisting 
protocols, and--in conjunction with the FBI and DHS--we have made major 
improvements to the Terrorist Identities Datamart Environment (i.e., 
the classified backbone of terrorist watchlisting also known as 
``TIDE'') to better support watchlisting, information sharing, and 
analysis. In addition, a comprehensive training program has been 
developed for the counterterrorism community involved in watchlisting 
and screening to ensure consistent application of watchlisting 
standards across the U.S. Government. Finally, I restructured NCTC's 
directorates to bring improved focus to terrorist identities; the new 
directorate brings additional resources to bear to enhance watchlisting 
records and fuse biometric and biographic watchlisting data.
    Supporting all of these and other NCTC missions, NCTC has continued 
to lead information integration across the counterterrorism community. 
NCTC has long had appropriate access to a plethora of databases that 
span every aspect of terrorism information, but over the past year in 
conjunction with the ODNI, DHS, CIA, NSA, DOD, and DOJ (including FBI), 
we have further developed an Information Technology infrastructure to 
better meet the demands of the evolving threat. Such steps include the 
enhancement of a ``Google-like'' search across databases, and the 
development of a ``CT Data Layer'' to discover non-obvious terrorist 
relationships so that analysts can examine potential findings more 
efficiently. All of these efforts are being pursued vehemently, but 
they also require careful consideration of complex legal, policy, and 
technical issues as well as the implementation of appropriate privacy, 
civil liberty, and security protections.
    And as we improve our ability to counter the evolving threat, we 
remain focused on sharing intelligence outside the ``Federal family.'' 
Working with and through DHS and FBI, NCTC's Interagency Threat 
Assessment and Coordination Group (ITACG) continues to bridge the 
intelligence information gap between traditional intelligence agencies 
and State, local, Tribal (SLT) partners, playing a pivotal role in 
assisting Federal partners in interpreting and analyzing intelligence 
intended for dissemination to SLT mission partners.
                      countering violent extremism
    As this committee knows well, counterterrorism efforts are not just 
about stopping plots but must also include addressing ``upstream 
factors'' that drive violent extremism. NCTC continues to play a 
significant role in this realm, both overseas and at home. Pursuant to 
our authorities under the Intelligence Reform and Terrorism Prevention 
Act, NCTC helps identify, integrate, coordinate, and assess U.S. 
Government efforts that aim to counter and prevent the recruitment and 
radicalization of a new generation of terrorists. Our focus is on both 
near- and long-term efforts to undercut the terrorist narrative and 
promote safe and responsive communities, thereby minimizing the pool of 
people who would support violent extremism.
    More specifically, NCTC works with colleagues in Federal, State, 
local and Tribal governments; with international partners; and with the 
private sector to integrate all elements of National power to counter 
and prevent violent extremism. We are coordinating an interagency 
planning effort to address domestic radicalization. Where appropriate, 
NCTC is also helping support and coordinate the Federal Government's 
engagement with American communities where terrorists are focusing 
their recruiting efforts.
    In all of our efforts we work closely with security agencies such 
as DHS and FBI, as well as non-traditional Federal partners such as the 
Department of Health and Human Services and the Department of 
Education. For example, NCTC participated in an event with the 
Department of Education where five school districts came together to 
discuss unique challenges facing schoolchildren of Somali descent, 
including targeted recruitment efforts by al-Shabaab. These non-
security partners offer expertise in social services and the capacity 
to act on the local and community level. By coordinating and 
integrating a broad community of interest, NCTC ensures a ``whole of 
government'' approach that is vital to addressing and preventing 
radicalization.
    While Government has an important role in developing and 
implementing strategies, we view the private sector and community 
institutions as key players in directly countering radicalization, and 
we believe strongly that addressing radicalization requires community-
based solutions that are sensitive to local dynamics and needs. In this 
regard, NCTC has engaged the private sector to provide forums in which 
to examine these issues. Specifically, we recently participated in an 
event hosted by a prominent think tank that brought together private 
technology experts and community members in order to explore ways to 
counter terrorist narratives on the internet.
    NCTC in coordination with FBI and DHS has also worked with 
community leaders, State and local governments and law enforcement 
involved in countering violent extremism to understand how governments 
can effectively partner with their communities. It has become clear 
that Government can play a significant role by acting as a convener and 
facilitator that informs and supports--but does not direct--community-
led initiatives. Based on this, NCTC has developed a Community 
Awareness Briefing that conveys unclassified information about the 
realities of terrorist recruitment in the Homeland and on the internet. 
The briefing aims to educate and empower parents and community leaders 
to combat violent extremist narratives and recruitment. NCTC has 
presented the briefing to communities--including Muslim American 
communities--around the country, leveraging, when possible, existing 
U.S. Government engagement platforms such as DHS and FBI roundtables.
                               conclusion
    Chairman King and Ranking Member Thompson, I want to thank you for 
the opportunity to testify before your committee today. Together we 
have made great strides in reducing the likelihood of a successful 
terrorist attack--especially a catastrophic one. But as you know well, 
perfection is no more possible in counterterrorism than it is in any 
other endeavor. NCTC and the entire counterterrorism community work 
tirelessly to reduce the likelihood of attack but we cannot guarantee 
safety. In this regard, I believe we must continue to foster resilience 
domestically while highlighting the futility of al-Qaeda's fight.
    Without your leadership, the strides we have jointly made to 
counter the terrorist threat would not be possible. Congress's 
continued support is critical to the Center's mission to lead our 
Nation's effort to combat terrorism at home and abroad by analyzing the 
threat, sharing that information with our partners, and integrating all 
instruments of National power to ensure their coordinated application 
and thereby maximize our effectiveness at combating the threat. I look 
forward to continuing our work together in the years to come.

    Chairman King. Thank you, Director Leiter. I thank both 
witnesses for their testimony.
    Secretary Napolitano, 2 years ago, when you made your first 
statement before this committee, I pointed out the fact that 
you do not use the word ``terrorist'' or ``terrorism'' even 
once. In today's statement, you used it more than 60 times. Is 
that a reflection of the growing terrorist threat? Is it a 
reflection of the changing emphasis within the administration? 
Or is it just something that happened?
    Secretary Napolitano. Well, I think my initial statement 
before the committee was one of several speeches, and it just 
happened to be the one that didn't use the word ``terrorism.''
    But the plain fact of the matter is, is that I spend the 
bulk of my time working on counterterrorism-related activities. 
It can be in the TSA world. It can be in the CBP world. It can 
be with intel and analysis and working with our fusion centers 
with the NCTC and others, but this is a top priority for us.
    Mr. Chairman, one area that is really not up to bat today 
but is a new one and is also one I think we need to watch out 
for is the whole word of cyber and cybersecurity and how that 
is going to interconnect with the terrorist----
    Chairman King. Yes. In fact, Chairman Lungren--is going to 
be working on that extensively during the year. How prepared do 
you believe the Department is to deal with the threat from 
biological, chemical, radiological weapons?
    Secretary Napolitano. Yes. Now that is an extraordinarily 
difficult area in the sense that we are still working on--at 
the science and technology level on things like detection 
mechanisms that are effective in all areas. Mr. Chairman, I 
think I would say that we are more prepared now than we were 2 
years ago. Two years ago we were more prepared than 2 years 
before then. But there is still much work to be done.
    That is why we have funded and are continuing to fund 
pilots of different types with laboratories and universities 
and actually private-sector entities around the country, 
particularly in the CBRN arena. That is why those things are so 
important. Securiing the Cities is an example of that.
    Chairman King. Thank you. Director Leiter, with the 
splintering of these--the development of these various splinter 
groups, how much control do you see coming from al-Qaeda 
central to those groups? If there is not control, is that good 
or bad?
    Mr. Leiter. Mr. Chairman, I think there remains certainly 
ideological inspiration from al-Qaeda's senior leadership but 
less and less operational control. I think that is in large 
part due to the offensive pressure that we are applying to al-
Qaeda in Pakistan.
    I think to some extent that is quite good. It reduces the 
likelihood again of a large-scale organized attack. I think the 
negative aspects of it is it allows the franchises to innovate 
on their own. In the case of al-Qaeda and the Arabian Peninsula 
in Yemen and folks like Anwar al-Awlaki they have been quite 
successful at being innovators that make our jobs more 
challenging.
    Chairman King. Not to be, I guess, grading them, but would 
say that al-Awlaki is at least a severe threat today as Bin 
Laden?
    Mr. Leiter. I actually consider al-Qaeda in the Arabian 
Peninsula with al-Awlaki as a leader within that organization 
probably the most significant risk to the U.S. homeland. I am 
hesitant to rank them too quickly, but certainly up there.
    Chairman King. Would al-Awlaki be the one who has been the 
most successful as far as radicalizing through the internet?
    Mr. Leiter. I think al-Awlaki is probably--certainly is the 
most well-known English-speaking ideologue who is speaking 
directly to folks here in the homeland. There are several 
others who we are concerned with but I think al-Awlaki probably 
does have the greatest audience and the like. So in that sense 
he is the most important.
    Chairman King. How effective do you find Inspire?
    Mr. Leiter. It is a difficult question. Mr. Chairman. We 
obviously look at Inspire. It is spiffy. It has got great 
graphics and in some sense we think probably speaks to 
individuals who are likely to be radicalized. Frankly there is 
very little new information in Inspire. So to that extent it is 
not I don't think something revolutionary and new in the 
substance. But again, in the way it conveys the message it is 
useful and we think it is attractive to English speakers.
    Chairman King. How concerned are you at the possibility of 
messages or signals being sent through Inspire?
    Mr. Leiter. I think I would take that more in a classified 
setting, but as a general matter I think Inspire is attempting 
not to build a secret network between AQAP folks in the United 
States or other English-speaking countries. It is more looking 
to what the title suggests, inspire them to act on their own.
    Chairman King. Secretary Napolitano, in your State of the 
Homeland Security speech, you mentioned D-block and the 
President made reference to it in his State of the Union 
speech. We don't have the details yet. Can you give us any 
indication of when it will be formally unveiled or what the 
specific details of D-block will be?
    Secretary Napolitano. I don't know the exact date. We will 
find that for you, Mr. Chairman. But I know the President is 
intent on working with the Congress to set aside the D-block 
for public safety. It is something that both our Department and 
the Department the Justice advocated very strongly within the 
administration. But I don't know the exact date when they are 
going to approach the Congress about the legislative change 
that will----
    Chairman King. I look forward to working with you and the 
administration on that.
    Secretary Napolitano. Indeed.
    Chairman King [continuing]. Ranking Member, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman, for 
holding this hearing. Secretary Napolitano, in your testimony 
you went to great lengths to describe your involvement in the 
homeland relative to home-grown terrors. Law enforcement 
agencies have also talked about neo-Nazis, environmental 
extremists and anti-tax groups as more prevalent than al-Qaeda-
inspired terrorist organizations. Have you looked at this to 
see if that in fact is the truth?
    Secretary Napolitano. Representative Thompson, not in that 
sense. I mean, we don't have like a scorecard. The plain fact 
of the matter is, is that from a law enforcement, terrorist 
prevention perspective we have to prepare law enforcement and 
communities for both types of acts.
    Mr. Thompson. Well Mr. Leiter, given what has occurred in 
the last 2 years here in this country, have you been able to 
analyze what that threat looks like?
    Mr. Leiter. Congressmen, by law the National 
Counterterrorism Center only looks at international terrorism 
or that inspired by international terrorism. So my analysts do 
not actually look at some of the groups that you described in 
your question to the Secretary.
    Mr. Thompson. But you do communicate to the people. Am I 
correct? On the domestic side.
    Mr. Leiter. We generally work through the Department of 
Homeland Security and the FBI, who has the direct operational 
responsibility.
    Mr. Thompson. Madam Secretary, could you help me with that?
    Secretary Napolitano. In what sense?
    Mr. Thompson. Relative to the information in terms of 
individuals who are being a threat to the homeland. I am trying 
to look at it in a broader sense. Sometimes we tend to narrow 
the focus. But I think what we have to do in looking at the 
threat is look at the entire threat. Can you share with the 
committee some of those other threats that you have deemed 
necessary to address?
    Secretary Napolitano. Well, what we are focused on is 
helping law enforcement and communities look for the tactics, 
the techniques, the behaviors that would indicate that a 
violent act, a terrorist act, is impending. Now, some of those 
are inspired by Islamist groups, Al-Qaeda and so forth. Others 
can be inspired by, like, anti-government groups flying a plane 
into the IRS building, for example.
    So the JPTS are the ones on which we have members who case-
by-case analyze what was the motivation of a particular actor 
at a particular time. I would say, Representative Thompson, 
that we see a variety of different types of motivations in 
addition to the Islamist motivation that we are here talking 
about right now.
    Mr. Thompson. For the sake of the record, give us some of 
those varieties.
    Secretary Napolitano. They can be anti-Federal Government 
type of motivation. I mentioned the individual who flew the 
plane into the IRS building. Tim McVeigh. I worked on the 
Oklahoma City bombing case. Would be another great--I don't 
want to say great example--another example of that sort of 
motivation. It can be a variety of other things. As Mike 
indicated, the FBI works directly on those cases, has 
operational lead for their investigations.
    Mr. Thompson. Mr. Leiter, let's take an international 
situation. The incident that occurred in October with the 
printer bomb. Were you involved in that?
    Mr. Leiter. Yes, we were.
    Mr. Thompson. Can you share with the committee, if you can, 
whether or not security gaps like that are being reviewed going 
forward, so that others hopefully will be closed?
    Mr. Leiter. Congressmen, I can. Then I will also defer 
again to Secretary Napolitano, who has some broader 
responsibilities for cargo. Actually even before that event we 
were obviously concerned with the possibility of using cargo in 
a terrorist attack. You only have to look back at the Lockerbie 
bombing to know that this is something that could occur.
    Since that event, we have worked at NCTC and the 
intelligence community to find new ways to support DHS to 
sharpen our ability to find individuals or shippers who we 
consider high-risk so those packages can be put through further 
screening. I think as Secretary Napolitano will echo, it is a 
challenge.
    Secretary Napolitano. Yes, Representative Thompson, even 
prior to October we had assembled an international initiative 
similar to what we have been doing on passenger air travel with 
respect to cargo. It involves the World Customs Organization, 
the International Civil Aviation Organization, and the 
International Maritime Organization.
    What we are doing is working to have international 
standards requirements, and also working with the private 
sector who are the main air shippers. This of course was an air 
shipment. We are now screening 100 of at-risk cargo that is on 
a passenger plane inbound to the United States, which is 
something we had not had the capability of doing until the last 
year. We continue to work across the world, across different 
nodes of transportation, across different types of cargo, 
across different types of personnel who handle that cargo to 
secure the entire supply chain.
    Mr. Leiter. Congressmen, if I could just add one point. I 
think this is an area where the cooperation between DHS and 
NCTC has really improved and been stellar over the past year. 
Not just with cargo, but with screened personnel. The movement 
now of information as we see a threat in the intelligence 
stream about a country or a name or a region and where we think 
an attack might be coming to, that movement is moving--that 
information is moving in real time to DHS so DHS can rapidly 
adjust their screening protocol. Again, that is happening on an 
hourly basis.
    Chairman King. The gentleman from Texas, Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    Thank you, Madam Secretary, Director Leiter. In November 
2009, I attended the Fort Hood memorial service just north of 
my district in Texas and saw the 13 combat boots, the rifles, 
talked to the soldiers who had been shot that day. They 
described how the Major Hasan said, ``Allahu Akbar.'' It was 
very dramatic.
    Some said that wasn't an act of terrorism. I said it was. I 
think it is the deadliest attack we have had since 9/11.
    Since that time, the Senate has issued a report called, ``A 
Ticking Time Bomb.'' In that report, it talks about how the 
Joint Terrorism Task Force in San Diego had information about 
Major Hasan's contacts with what you described, Director, as 
the most dangerous threat to the United States' security, and 
that is Awlaki. Unfortunately, that information was not shared 
with the commander, General Cone at Ford Hood, who I talked to, 
and I said, ``Wouldn't you have liked to have known that?''
    When the attack took place, the FBI agent was quoted as 
saying, ``You know who that is? That is our boy. That is our 
boy.''
    Can you tell this committee and the American people what 
happened that day and what Major Hasan's connections are to the 
terrorist community?
    Mr. Leiter. Congressman, to begin, I would just say at 
NCTC, within about 48 hours of that attack, we designated that 
a terrorist attack in what we call the worldwide incident 
tracking system. So from our perspective, it was--as soon as we 
had the initial indication of the motivation, we counted it as 
a terrorist attack. It can always change back; in this case, it 
hasn't.
    With respect to his connection to Awlaki and AQAP--and I 
want to be very careful here, because obviously this is still a 
case for prosecution--but we have said publicly it looks to us 
like inspiration, rather than direction.
    Finally, your question about what happened, I want to be 
careful not to speak for either Director Mueller or the 
Department of Defense. I think they said quite clearly at the 
time that information was not shared effectively between the 
FBI and Department of Defense. They have taken remedial action 
to address some of that.
    I know on--for NCTC's part, since then, we have worked with 
the FBI to produce improved training materials and training for 
field offices, so there really is no question for the next 
special agent when he is investigating a case that he will 
recognize the telltale signs of radicalization and moving 
towards mobilization, and not just convey that to the 
Department of Defense, but probably be more aggressive in 
following that up.
    Mr. McCaul. I mean, I think the American people--it is hard 
to understand--you know, you have to--and we can talk about 
infiltration of the military and what the threat is there, but 
it is hard for the average citizen to understand how the FBI 
could have this kind of information, that you have a major at 
the biggest installation in the United States in contact with 
one of the biggest threats to the security of the United 
States, and yet that information is not shared at all.
    I think that is a major breakdown. I hope--and I know that 
is not totally within your purview and your jurisdiction, but I 
sure hope we can fix that--fix that problem.
    Mr. Leiter. Congressman, I will say, again, I do know that 
the Department of Defense and FBI now have a much tighter 
relationship, so that information is shared. During the 
investigation, it was shared with a Department of Defense agent 
on the JTTF, but not shared back to the Army. We have also 
since then expanded NCTC's access to some of that granular 
information that was the basis for the investigation, so NCTC 
can help to fill those gaps and make sure the information is 
properly shared.
    Mr. McCaul. Okay.
    Madam Secretary, you were quoted in the Hill newspaper as 
saying that, with respect to the border, that the border--it is 
inaccurate to state that the border is out of control.
    We had a briefing with Border Patrol. They said that about 
44 percent of the border is under operational control. As you 
well know, the killings, the violence going on, you know, 
coming from Arizona, me coming from Texas, I would say my 
constituents do view it as an out-of-control state.
    The special interest aliens have--has increased by 37 
percent. Those are persons coming from countries that may have 
potentially terrorist influences. There was recently a 
potential terrorist that was found in the trunk of a car, paid 
a Mexican cartel drug dealer $5,000 to sneak across the border.
    Could you just clarify the statement, in terms of your 
statement that it is not out of control down there?
    Secretary Napolitano. Oh, absolutely. First--and I will 
give you the full talk that I gave at UTEP.
    But the border--thanks in part to the bipartisan efforts of 
the Congress--has more manpower, technology, and infrastructure 
than ever before. The numbers in terms of seizures that need to 
go up are going up, and the numbers in terms of illegal 
immigration are going way down.
    The communities that are along the border--San Diego, 
Nogales, El Paso, and so forth--are among, in terms of violent 
crime statistics, are among the safest in the United States.
    So what I was saying at that--from which I am quoted in 
part was to the cartels in Mexico: Don't bring your violence 
that you are doing in Juarez, et cetera, over into the United 
States. You will be met with an overwhelming response.
    It is true that there are crimes on this side of the 
border. The murder of a rancher in Arizona is one example. But 
it is inaccurate to extrapolate from that to say that the 
entire border is out of control.
    With respect to the 44 percent number, I think it is 
important to recognize that operational control is a very 
narrow term of art in Border Patrol lingo. Basically, it is 
restricted to where you have individual agents located.
    It does not take into account infrastructure. It does not 
take into account technology, which is a force multiplier, as 
you know, so that I think it would be inaccurate to take from 
that number or that phrase to say, well, that means the other 
percentage of the border, 56 percent, is out of control. That 
would not be accurate.
    Chairman King. The gentleman's time has expired.
    The gentlelady from California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Thank both of you for being before us again.
    Secretary Napolitano, I am still worried about this whole 
issue of overstays with respect to visas, in particular because 
I belong to a couple groups that deal with the Europeans. As 
you know, the European Union is having a difficult time 
understanding why we accept some and not some others on Visa 
Waiver.
    So I would like to know 2 things. First, can you discuss 
the security measures with respect to somebody being able to 
come from a country where there is Visa Waiver going on and how 
that might be infiltrated by someone like al-Qaeda to get 
people over here? Second, what progress are we making on the 
exit part of US-VISIT?
    Secretary Napolitano. Well, in terms of Visa Waiver, what 
we have is ESTA. What ESTA does is that it gives us advanced 
information on someone traveling to the United States on a visa 
waiver----
    Ms. Sanchez. Is it working? Have we seen any places where 
someone or some cell group might be, in fact, trying to come in 
that particular way?
    Secretary Napolitano. Well, let me just say that it is 
working in terms of smoothly identifying individuals coming 
across. You know, we deal with so many passengers every day. 
So, from a systemic point of view, it is working.
    However, I think it important to say that there is--no 
system, no matter how well working, is a 100 percent guarantee 
that someone will not be able, ultimately, to infiltrate it. It 
may be somebody about whom we have no advance information; it 
may be somebody who has managed to steal an identity of someone 
else.
    This is, unfortunately, a business in which we cannot give 
guarantees. What we can do and what we are doing is maximizing 
our ability to catch somebody ahead of time and minimize the 
risk that they will be infiltrated.
    In terms of visa overstays, in addition to U.S. Exit, let 
me just suggest that one of the most effective investments the 
Congress can make is in ICE investigative agents, because they 
are the ones that really find the visa overstays and get them 
into proceedings.
    So one of the things we are looking at doing as we move 
forward in the budget process is being able to staff ICE 
appropriately in that regard.
    Ms. Sanchez. You stated earlier, in response to one of my 
colleague's questions, that you believe that all this 
technology that we have been using at the border, in particular 
with respect to Mexico, is a force multiplier.
    The entire time that I was the chair of the Border 
Subcommittee, we would get both GAO and Border Patrol saying 
they didn't know if some of this technology was actually going 
to require that we have more people or that we actually get 
that savings that we intuitively think should come from that.
    Do you have a new study, do you have new numbers, do you 
have something that is showing that relationship? Because the 
entire time that I was the chair, which was for about 3 years, 
we have on record people saying that maybe it doesn't lower the 
amount of body power that we need.
    Secretary Napolitano. Well, you still need manpower. I 
mean, technology is no substitute for manpower. But you are 
never going to have enough money to put a Border Patrol agent 
every 100 yards along the thousands of miles of border.
    So you have to have technology and infrastructure as a 
three-legged stool as part of a system. Then you have to have 
interior enforcement inside the country to back that up.
    One of the reasons that I stopped the SBInet program was so 
that we could redeploy those moneys into technologies that we 
know work, that we know are force multipliers, that enable, for 
example, a small forward-operating base near the Tohono O'odham 
nation in Arizona to be a deterrent and be able to cover a 
larger distance than otherwise they would be able to do.
    Ms. Sanchez. Last--and this would be to our other guest--I 
represent a very large Arab Muslim community in our Nation, 
have the second-largest community mosque, if you will. We have 
had a lot of situations with FBI probes and local infiltration, 
et cetera. What are the safeguards that we now have in place so 
that we aren't sending people into mosques and trying to elicit 
proactively somebody to create some sort of terrorist attack?
    Mr. Leiter. Well, Congresswoman, I want to be a bit 
careful, because although I am familiar with them, I am 
certainly no expert on the FBI domestic intelligence operating 
guidelines and the attorney general guidelines.
    What I can tell you is the FBI, approved by the attorney 
general, has very strict guidelines on the level of 
intrusiveness and what they can do based on specific 
information about individuals not having radical thoughts, but 
moving to action, which should be terrorist actions.
    One of the key requirements is that no investigations can 
be predicated on the exercise of first amendment rights. There 
always has to be additional evidence on which to predicate an 
investigation that would then lead to some of the tools that 
you referenced.
    Ms. Sanchez. Has that always been the case? Because we have 
documented cases, of course, even out in the press and out in 
the public where the fact of the matter was there was 
instigation of these things within the mosque by our own 
undercover.
    Mr. Leiter. I can tell you that the current attorney 
general guidelines were developed during the end of the Bush 
administration and ultimately approved under the Obama 
administration and signed by the current attorney general.
    The key piece here, if I may, is that you have to--
obviously, there are going to be places where you have to do 
law enforcement investigations. In my view you have to have a 
balanced approach, not just those law enforcement 
investigations, but you have to engage with those communities, 
with other non-law enforcement elements of the U.S. Government 
to make clear that this is not an adversarial situation. In 
fact, this is a partnership.
    As you know well, many of our tips to uncover active 
terrorist plots in the United States have come from the Muslim 
community. So we have to make quite clear that the communities 
are part of the solution and not part of the problem. You do 
that through using a variety of tools, not just law 
enforcement.
    Chairman King. The time of the gentlelady has expired.
    Dr. Broun of Georgia.
    Mr. Broun. Thank you, Mr. Chairman.
    Secretary, Director, appreciate you all being here today. I 
have several pressing questions for both of you, and in my 
limited amount of time, it will allow for only one or two, and 
I trust that you will send a prompt response to my written 
questions.
    My first question is for both of you, but I would like the 
Director to give me a written response, but I would like to 
address this particularly here in this hearing.
    Secretary, most terrorist experts believe that given the 
list of incidents of homegrown radicals--and trained terrorist 
recruits, the United States is now a little different from 
Europe in terms of having a domestic terrorist problem 
involving the immigrant as well as indigenous Muslims as well 
as converts to Islam.
    However, in April 2010 the Obama administration announced 
that it intended to remove religious terms such as ``Islamic 
extremism'' from the National security strategy. Moreover, in a 
May 2010 speech at the Center for Strategic and International 
Studies, the deputy national security adviser for homeland 
security and counterterrorism, John Brennan, stated that the 
administration would not ``describe our enemy as jihadist or 
Islamist.''
    Do you believe that by disregarding the ideological factor 
behind the recent rise in domestic and international terrorism 
mainly by Islamic extremism the administration is inhibiting 
our ability to address and combat this dangerous trend?
    Secretary Napolitano. Representative, without having seen 
John Brennan's speech or having recently reviewed the National 
security strategy, let me, if I might, respond to that in 
writing. I would venture to say that what the concern was is 
that in addition to Islamist terrorism or Islamist-inspired 
terrorism, we not overlook other types of extremism that can be 
homegrown and that we indeed have experiences with, as I 
described to Representative Thompson.
    But as our testimony here today indicates, we understand 
full well that Islamist-inspired, al-Qaeda-inspired, however 
you want to call it terrorism, be it coming from abroad were 
now being homegrown, it is part and parcel of the security 
picture that we now have to deal with in the United States.
    Mr. Broun. Well, I appreciate that--I went through security 
TSA not long ago, and I went through it. There was a guy who 
followed me that obviously was of Arabian and or Middle Eastern 
descent. Both of us were not patted down. There was a grandma 
who followed me, and she was patted down. There was a small 
child with her. He was patted down. I have yet to see a grandma 
try to bomb any U.S. facility with chemicals in her bloomers, 
so I think we need to focus on those who want to do us harm.
    Secretary Napolitano. Representative, if I might respond to 
that, because that is a common complaint that I----
    Mr. Broun. I saw it myself.
    Secretary Napolitano. Well, I know. Let me just suggest, 
first of all, that when we add random screening to whatever we 
are doing, it has to be truly random. Otherwise, you use the 
value of unpredictability.
    Second, I would be happy to have you briefed in a 
classified setting about how when we set firm rules about we 
won't screen this kind of person or that kind of person, that 
our adversaries, they know those rules, and they attempt to 
train and get around them.
    Mr. Broun. Well, thank you. I would appreciate that 
briefing.
    We have to focus on those people who want to do us harm. 
This administration and your Department are seen to be very 
adverse to focusing on those entities that want to do us harm 
and have even at times back when your spokesman came and 
testified before this committee, he would not even describe 
that Fort Hood massacre as a terrorist threat and talked about 
an alleged attack.
    I think this is unconscionable. We have to focus on those 
people who want to harm us. The people who want to harm us are 
not grandmas, and it is not little children. It is the Islamic 
extremist. There are others, and I want to look into those, 
too, but your own Department has described people who are pro-
life, who are--who believe in the Constitution, and military 
personnel as being potential terrorists.
    Now, come on. Give me a break. We do need to focus on the 
folks who want to harm us. I encourage you to maybe take a step 
back and look and see how we can focus on those people who want 
to harm us. We have to profile these folks. You all have not 
been willing to do so, in my opinion. I hope that you will look 
at this issue, because I think it is absolutely critical for 
the safety of our Nation and for the American citizens.
    I will submit the other questions for written comment. 
Thank you both for being here.
    Secretary Napolitano. Mr. Chairman, may I make a response 
to that?
    Chairman King. Yes.
    Secretary Napolitano. First of all, Representative, there 
are hundreds of thousands of men and women in my Department. 
They come to work every day to protect the American people. The 
writing or the document I think you are referencing was 
something that was actually drafted at the end of the Bush 
administration and issued by mistake at the beginning of this 
administration. I would point out that we just established that 
in the Hasan matter, he is a terrorist, and he was an active 
duty military individual.
    Chairman King. The time of the gentleman has expired.
    The gentleman from New York, my colleague, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Chairman King. New Member of the committee. Good to have 
you aboard, Brian.
    Mr. Higgins. Thank you very much, Mr. Chairman.
    Madam Secretary, the Peace Bridge connects my community, 
western New York, to southern Ontario. It is the busiest 
passenger crossing at the northern border and is a vital 
economic asset to western New York and to the country and of 
profound National security importance.
    We are advancing a project to reduce congestion at the 
Peace Bridge by building a new span and customs facilities, but 
our progress has been slowed in part due to ambiguous and 
sometimes conflicting communications from the Department of 
Homeland Security. Specifically, confusion exists about whether 
the project would include pre-clearance, a shared border 
management strategy, but would locate the American customs 
plaza on the Canadian side of the bridge.
    On August 20, 2009, you wrote to me that pre-clearance was 
not possible, because it would require the United States accept 
a lower level of security at the Peace Bridge than at any other 
U.S. port of entry or require Canada to accept actions contrary 
to its charter of rights and freedoms.
    Mr. Chairman, I would like to enter that letter into the 
record.
    Chairman King. Without objection.
    [The information follows:]
             Submitted For the Record by Hon. Brian Higgins
                                                   August 20, 2009.
The Honorable Brian Higgins,
U.S. House of Representatives, Washington, DC 20515.
    Dear Representative Higgins: Thank you for your March 26, 2009 
letter regarding land preclearance for border crossings between 
Buffalo, New York, and Fort Erie, Ontario. Public Safety Canada 
Minister Peter Van Loan, Secretary of State Hillary Clinton, and 
Representatives Louise Slaughter and John McHugh have also asked me to 
personally look into the shared border management issue.
    The United States and Canada negotiated in good faith on a pilot 
program for land preclearance between 2005 and 2007. Although our two 
governments were able to reach agreement on some key issues, 
negotiations ended in 2007 when a mutually acceptable framework could 
not be reached due to sovereignty issues for both the United States and 
Canada.
    Implementing the proposed land preclearance framework would have 
required the United States to accept a lower level of security at a 
land preclearance crossing than at any other U.S. port of entry or 
required Canada to accept actions contrary to its Charter of Rights and 
Freedoms. U.S. Government concerns included limited U.S. law 
enforcement authority, the right of individuals to withdraw 
applications, limitations on fingerprint collection and sharing, and 
potential future interpretations of the Charter. The Department of 
Homeland Security (DHS) subsequently developed a concept that would 
have deployed U.S. Customs and Border Protection officers to Canada to 
perform primary inspection and reserved all authority to conduct 
secondary inspections on U.S. soil, but Canada was not interested in 
pursuing that option and suggested that attention shift to other 
efforts to facilitate low-risk commercial traffic.
    Since the beginning of the land preclearance negotiations, there 
have been significant improvements at the Peace Bridge that have 
facilitated travel and trade, and more are planned. These include an 
expanded number of truck lanes, a redesign of the plaza, the creation 
of a new pedestrian lane and expanded passenger processing terminal, 
the creation of a dedicated NEXUS lane and opening of a second 
enrollment center, and the installation of radio frequency 
identification (RFID) technology. Current plans to redesign the U.S. 
plaza at the Peace Bridge, long term plans to build a companion bridge, 
and the expected saturation of the traveling public with WID-enabled 
Western Hemisphere Travel Initiative-compliant documents, are expected 
to address long-standing challenges of limited capacity and outdated 
infrastructure. These improvements will lead to the relief sought 
through land preclearance well before it would have been possible to 
implement land preclearance.
    Having reviewed the significant legal and sovereignty issues that 
were at the heart of the decision to terminate negotiations, as well as 
the current situation on the ground, I have decided DHS will not be 
reopening negotiations on land preclearance at the Peace Bridge. 
However, DHS will continue to engage with Canada on preclearance issues 
more generally and will continue to explore new ideas for creating 
additional efficiencies at our shared ports of entry. I welcome your 
input, as well as the input of public and private sector stakeholders, 
in these endeavors to further enhance the flow of legitimate trade and 
travel at the Peace Bridge and the U.S.-Canadian border more generally.
    Thank you again for your interest in homeland security, and your 
commitment to the physical security and economic well-being of the 
United States and Canada. A similar response was sent to Representative 
Christopher J. Lee, who cosigned your letter. Should you need 
additional assistance, please do not hesitate to contact me.
            Yours very truly,
                                          Janet Napolitano.

    Mr. Higgins. Yet in response to recent media inquiries on 
the issue, the Department of Homeland Security officials have 
issued vague responses that have caused confusion about the 
status of the pre-clearance proposal.
    Madam Secretary, we need clarity from the Department of 
Homeland Security on this issue in order for this important 
project to proceed, so can you please tell us does the position 
of the Department of Homeland Security remain consistent with 
your letter that due to security and constitutional obstacles 
that cannot be overcome, the Peace Bridge project will not 
include locating the American customs facilities in Canada?
    Is it your position that the Department of Homeland 
Security will not reopen negotiations on pre-clearance at the 
Peace Bridge and that the pre-clearance proposal is for the 
purposes of this project dead?
    Secretary Napolitano. Representative, I will be very clear. 
We have looked into pre-clearance on the Canadian side. We 
cannot do it. The position has not changed. When and if the 
bridge and the facilities are expanded on the U.S. side, we are 
fully prepared to provide the staffing and support for that on 
the U.S. side.
    We understand the importance of the span for trade and 
tourism and so forth, but we are not going to be able to 
resolve the pre-clearance issues in Canada.
    Mr. Higgins. Okay.
    I yield back. Thank you.
    Chairman King. The gentlelady from Michigan, Mrs. Miller.
    Mrs. Miller. Thank you, Mr. Chairman. I think I will follow 
up a bit of my colleague from New York, who raised sort of a 
northern border issue.
    If I could talk a bit, Secretary and Director--and, first 
of all, thank you both for coming, and we appreciate your 
service to the Nation sincerely--we have a lot of people on the 
committee that talk about the southern border, and, believe me, 
I am not minimizing. I recognize the challenges that we have on 
the southern border and the safety of our Nation. But I do 
sometimes think we forget, almost, about the northern border.
    One of my colleagues said there was 44 percent of 
operational control on the southern border. According to the 
GAO report that came out last week, we have less than 2 percent 
under operational control of our 4,000-mile--with our 
wonderful, wonderful trading partner--our biggest trading 
partner is not Mexico, it is Canada by a huge, huge margin. As 
you mentioned, the Peace Bridge in Buffalo, which is, I think 
we have always thought, sort of the third-busiest crossing, I 
think the first in passenger.
    But in my district and my colleague from Detroit, Mr. 
Clarke, where he has the Ambassador Bridge, which is the 
busiest commercial artery on the northern tier, the Windsor 
Tunnel there, and the Blue Water Bridge in my district, which 
is 30 minutes, 30 miles to the north, it is the second-busiest 
border crossing. The Canadian national rail tunnel runs under 
the St. Clair River there, as well.
    We were very concerned about what the GAO said about 
essentially no operational control, for all practical purposes, 
along the northern border. I would just like to address that a 
bit, because as we think about our wonderful trading partner, 
our neighbors of Canada, there are several Islamic terrorists, 
extremist groups that are represented there, as you are well 
aware.
    I thought it was interesting, with the GAO report coming 
out, on the heels of that, President Obama and Prime Minister 
Harper came out with a U.S.-Canadian agreement, which was a 
wonderful step forward--they are going to put this working 
group together, but talking about some of the various unique 
challenges, dynamics along our shared border, how we can have 
interagency cooperation, sharing of intelligence, et cetera, et 
cetera.
    So from a high-tech perspective of the kinds of resources 
that I think we--are necessary along the--obviously, we are not 
going to build a 4,000-mile-long fence along the northern 
border. So certainly the kind of technology that we need to be 
utilizing there, as well as low-tech--low-tech, K9s. There are 
about 60 K9s, as I understand it, at El Paso. There are zero at 
the Blue Water Bridge and maybe one at the Ambassador Bridge.
    So, believe me, I am not minimizing what is happening on 
the southern border, but for everything to be going on the 
southern border at the expense of the northern border, I think 
we need to have a bit of a balance.
    Even the UAV missions, which I am heavily an advocate of, 
now with a ground mission at Corpus Christi--and I know we do 
have one along the more northern part of our border, but I 
think in the Detroit--certainly, Michigan, New York sector, 
having those kinds of--we need those kinds of technologies, 
off-the-shelf hardware, essentially, that has worked extremely 
well in theater that the taxpayers have already paid for, that 
we can utilize along the northern border.
    So I just raise this as a concern. Perhaps when we think 
about threats from abroad, et cetera, they are not all going to 
come on an airplane from Amsterdam. Of course, as the 
terrorists think to cripple our Nation, and they think about 
doing it economically, just to use the Blue Water again as an 
example, at that, as it comes into the United States, that is 
the genesis for I-69, I-94, two of the most major trade routes 
that we have.
    As my colleague talked about, what we consider to be 
reverse inspection, that is another thing we have been trying 
to advocate for. Could we have reverse inspection so that we 
are inspecting things before they start coming across our major 
infrastructure, as well?
    So I raise some of these questions. I am not sure who I am 
directing them all to.
    Secretary Napolitano. I think they are mine. Mike is going 
like this.
    Mr. Leiter. All yours.
    Mrs. Miller. Thanks, Secretary.
    Secretary Napolitano. I will be brief, Mr. Chairman.
    First of all, again, on the GAO report, we are--I encourage 
the committee, the term ``operational control'' is a very 
narrow term of art. It does not reflect the infrastructure and 
technology and all the other things that happen at the border, 
and so it should not be used as a substitute for an overall 
border strategy.
    One of the most significant things that has happened in the 
last month, quite frankly--or even in the last year--was Prime 
Minister Harper, President Obama signing the shared security 
strategy, border strategy between our two countries.
    It is our No. 1 trading partner. Canada is now beginning to 
do or conducting some of the same kinds of things around its 
perimeter that we used to be concerned about coming across 
inland on the border. We will be working more in light of this 
shared vision statement on an integrated northern border 
strategy. Indeed, we have prepared one. It is in review right 
now at the OMB.
    Because as you recognize, Representative, borders are--they 
are law enforcement jurisdictions, and you have to protect the 
borders in that regard, but they are also huge trade 
jurisdictions, and you have to be able to move legitimate trade 
and commerce.
    We are very much in favor of looking at ways to pre-clear 
certain things before they--cargo, for example, before it gets 
to the border so that we can relieve the pressure on the lines. 
The technology for being able to do that kind of thing gets 
better all the time. So that is one of the things we will be, I 
am sure, working on and implementing over the coming months and 
years.
    Mrs. Miller. Thank you. I know my time has expired, but I 
would just also point out, in regards to the TIDE list, without 
quantifying it, it is much higher--there are much higher hits 
on the northern border than they are on the southern border 
with the TIDE list, much higher.
    Mr. Leiter. Congresswoman, I will just say that I have been 
working extremely closely, going up to Ottawa since 2005. It is 
a very different set of challenges on that border, but it is 
one that we are acutely engaged on with the Canadians who are 
an excellent partner in information-sharing and the like.
    So although we talk about it less than the southern border 
quite often, that--I don't want to leave anyone with the 
impression that it is not a very high priority for us and the 
Canadians.
    Mrs. Miller. Thank you, Mr. Chairman.
    Chairman King. Now to the other side of the aisle, one of 
the more enthusiastic new Members, Mr. Clarke of Michigan.
    Mr. Clarke of Michigan. Thank you, Mr. Chairman. Thank you 
for calling this meeting.
    Thank you, Secretary Napolitano, Director Leiter. You know, 
I want to make sure that I address you directly, but I have to 
speak into this mic.
    Secretary Napolitano. That is okay.
    Mr. Clarke of Michigan. All right. Okay.
    Secretary Napolitano. We are good.
    Mr. Clarke of Michigan. I want to thank Chair Miller for 
outlining the importance of the busiest international border 
crossing in North America, which is in the city of Detroit, and 
also the fact that we have a large airport, which is an 
international hub.
    This makes this area at high risk of attack and also high 
impact, in case of a natural disaster or other emergency. In 
the event of such an emergency, it will be local police, local 
firefighters, our local emergency medical providers that will 
be the first to respond. My concern, though, is with the 
security of those first responders. I realize that this 
Department cannot be the local law enforcement or first 
responders.
    Last week, I visited a police precinct in Detroit, which a 
few hours earlier had been attacked by a lone gunman who tried 
to kill virtually every officer in that precinct, to find out 
that that precinct needed a metal detector that would have cost 
$5,000, but because of the city's budget restraints, couldn't 
afford that.
    I am aware that many of the grant programs are awarded on a 
competitive basis or based by formula. There are some 
districts, some areas that will get resources, some that won't.
    In your written testimony, Madam Secretary, you rightfully 
say that homeland security starts here with hometown security. 
What types of resources in addition to the grants are available 
to protect our first responders so they can be in a good 
position to protect our citizens in case of an attack or other 
emergency?
    Secretary Napolitano. Representative, I would suggest, in 
addition to the grants, some of which are formula-driven, 
others of which are based on analysis of risk and threat, one 
of the--or two of the things that are of direct assistance to 
our first responders are, A, training.
    That is why as we do our countering violent extremism 
curricula, we are testing it at FLETC with representatives of 
the chiefs' association, the sheriffs' associations, and others 
who would have to implement this on the ground.
    The second is information sharing, so that they have 
maximum access to actionable intelligence.
    Now, the latter probably would not help much in the case of 
a lone wolf gunman. Those are--and I will ask Director Leiter 
of his comments on that. But the lone wolf-type situation is 
almost impossible to prevent from a law enforcement 
perspective.
    So when you deal with the first responders, you deal with 
maybe early tips that somebody is getting ready to come in and 
then the ability to respond very effectively. That is SWAT 
training and equipment and the like.
    Mr. Leiter. Congressman, what I would say is, immediately 
after the Mumbai attacks in November 2008, we started working 
with DHS and FBI to look at the techniques that were used in 
India and how U.S. law enforcement and Homeland Security would 
be able to respond.
    Out of that, we created a scenario that has been used in 
Chicago and other cities by the local authorities in 
conjunction with the Federal authorities to see what kind of 
response could be brought.
    Recently, we combined with FEMA, and we now have a program 
for each of--I think it is the eight FEMA sectors. The last 
one, the first one was run in Philadelphia just several weeks 
ago, involved over 300 people, including the Philadelphia 
police chief, DHS, FEMA, FBI, again, running through a scenario 
like Mumbai with multiple shooters.
    Because you are absolutely right: It is going to be the 
Detroit police or the Philadelphia police that are there first. 
How do they respond? What specialized tools can the U.S. 
Government bring to bear? Certainly we would be happy to work 
with--I think it is Sheriff Bouchard or the Detroit Police 
Department or others to get that sort of training in 
conjunction with DHS and FBI to Detroit.
    Chairman King. The gentleman from Pennsylvania is 
recognized, Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Chairman. I appreciate the 
opportunity to be with you here today.
    I have noticed that the gentlewoman from California has 
departed, but I did want to take a moment on the record to 
express my regret that I will not have the opportunity to work 
so directly with her, having been given the opportunity to 
chair the Subcommittee on Counterterrorism, and it would have 
created that chance. I think--I spoke to my staff--it is a 
little bit like finally making it to the Yankees and realizing 
that they just traded away Derek Jeter.
    I am very grateful for your presence here today and for 
helping us set the table.
    Let me ask both Madam Secretary and Director Leiter, I came 
on to this issue just 5 days after September 11, like many of 
each of us did in different capacities, as United States 
Attorney.
    But we are sitting here now 10 years later. We have done a 
lot. We have done a lot right. I think the gravest marker of 
what we have done right is the incredible record of safety in 
the American homeland in that 10-year period.
    But we have also spent a lot of money. As you said, Madam 
Secretary, we have had hundreds of thousands of people deployed 
in this--we have--right.
    What are we doing now to begin to look back at what we are 
doing and say, hey, where are we going wrong?
    Where are we creating redundancies? What does our process 
now, 10 years later, for asking some tough questions about 
whether we could be doing something better?
    Or if we are doing something that--you know, the 
institution keeps moving forward because it is there. But maybe 
it is not the best expenditure of dollars, making tough 
choices.
    Secretary Napolitano. I will take that one first, 
Representative--say we are always asking those hard questions. 
It--I begin every morning with an intel briefing and I think my 
briefers will tell you, it begins with hard questions, why, 
where, how, what could have been done to prevent, what is 
needed, et cetera.
    With respect to those dollars, we all appreciate the fiscal 
discipline needed by our Department, even--you know, even 
though it is security and everyone says they want to protect 
security, we still have a duty to really protect dollars and 
use them in the wisest possible fashion.
    So it is everything from procurement reform that we have 
undertaken, acquisition management, which sounds really 
government-ese.
    But I will tell you, it is those kinds of things that help 
find projects before they get too far along, that are not 
really going to work or be value added to the process.
    Then, the third--and we have literally found hundreds of 
millions of dollars, that we have built into our budgets now, 
of cost avoidances, using some of those just plain old 
management techniques.
    Lastly, I think that our ability and the--just the--and I 
have seen it just even over the last 2 years, the increasing 
integration and leveraging of the data resources that NCTC has 
with its pursuit teams, with our incredible data resources that 
we collect on the customs and the TSA side.
    The ability to leverage those resources together is a 
Homeland Security kind of architecture that we just plain 
didn't have before, and allows us to make maximum use of the 
dollars we do get.
    But I ask the Director if he has anything to----
    Mr. Leiter. Congressman, I have three quick points. But I 
will open with the fact that the Yankees have traded a lot of 
greats. They keep on winning, so----
    Yes, but it is much to my chagrin.
    Chairman King. I share the Director's chagrin.
    Mr. Leiter. The Mets keep making a lot of trades and not 
winning.
    Three quick points, Congressman. First, the amount of 
change that already goes on is really quite incredible.
    Ms. Sanchez asked about the visa waiver program. The way in 
which we screen--ask the travelers today, compared to how we 
screened them a year ago, is radically different.
    So it really has not been a steady state in the first 
place. There have been lots of twists and turns. Unless you are 
kind of in the counterterrorism trenches, you don't necessarily 
know that is going on. Second, we, of course, try to learn 
lessons from our failures. But we also do a lot of gaming to 
try and figure out what the next attack will be and how we have 
to shape things.
    Now, that is an imperfect science, and you are going to end 
up going down some wrong paths.
    But there are significant things like that, as I said to 
Congressman Clark about gaming here domestically of about a 
Mumbai-style attack, when you look at that, do we have the 
right resources, do we have the right communications, what 
could we buy, even though we haven't seen that event here in 
the United States yet.
    The third is, Congressman, NCTC has a statutory 
responsibility to do net assessments, and that is looking both 
at the changed enemy, our U.S. capabilities and the changed 
global environment, including here in the United States.
    We provide that annual net assessment along with targeted 
net assessments to the White House. We also work closely with 
the Office of Management and Budgets to try to look across all 
of these expenditure centers and see which are being the most 
effective.
    I will tell you that that is a huge challenge, because 
simply identifying what satisfies part of a counterterrorism 
purpose, as you can imagine, is very difficult. The Department 
of Homeland Security is a perfect example.
    It is not just counterterrorism what CBC does. It is 
immigrant smuggling, it is drugs, it is all of these pieces.
    So trying to parse this out remains a challenge, but one 
that I think--especially over the last 2 years--we have made 
some good progress on.
    Mr. Meehan. I agree with the--I am not looking at it just 
from--although in this day and age, we are paying particular 
attention to how the dollars are spent--but some--also 
technique as well.
    I mean, at what point in time do we reach a tipping point? 
While I ascribe to the belief that we are doing the right 
things--hear people say, hey, when I have to walk through an 
airport screener and make the decision about whether I am 
groped or photographed, you know, are we going too far along?
    We keep pushing where--I went to that UPS terminal. The 
impact of trying to push off further and further the screening 
of the packages, at some point, it is going to have an impact 
on their ability to do business.
    I mean, where do we make those analyses? They are tough 
choices. But we say, hey, maybe we are overcompensating in 
order to try to create some sense of safety.
    Or is it necessary?
    Chairman King. The gentleman's time has expired. We can 
answer the question.
    Secretary Napolitano. Well, thank you, Congressman.
    Well, first, with respect to the AITs and the pat-downs, it 
was very interesting, but between Thanksgiving and Christmas, 
that heavy travel season, fewer than 1 percent of travelers 
opted out of using the AITs.
    As you may have seen, we are now piloting the next 
software, which will be even less invasive and will allow us to 
do fewer pat-downs.
    But the plain fact of the matter is, we do that because, 
from a security and intelligence perspective, and just looking 
at what Abdulmutallab did, going into Detroit in Christmas 
2009, we know they try to hire non-metallic-based explosives to 
get on a plane.
    We know that aviation, be it cargo or passenger, continues 
to be a target.
    So that is something that we have, you know, had to deal 
with. The TSA administrator, who is the former Deputy Director 
of the FBI, has to deal with it on a daily basis.
    We are working with UPS and FedEx and the other major 
shippers on how we secure cargo. We are moving toward kind of a 
trusted shipper regime so that cargo can move and we can meet 
the needs of real-time inventory.
    That is part of the global cargo supply chain initiative I 
was describing earlier. They are part and parcel of how we are 
devising that strategy.
    So we are not just sitting here, as the Government, 
figuring this out. We have the private sector, who has to move 
those planes and move that cargo, helping us.
    Mr. Leiter. Because, I will simply add, I think, almost 
everything we do in counterterrorism, there is a second-order 
effect. If we increase screening, that is going to affect 
people's perceptions.
    If we increase investigations domestically, that is going 
to affect the community.
    We have to build into those required and necessary 
preventive steps additional programs to address those second-
order effects so you are not worsening the situation 
inadvertently.
    Again, that applies to screening. It applies to homegrown 
extremism. It applies to overseas efforts.
    Chairman King. Virgin Islands.
    Mrs. Christensen. Thank you, Mr. Chairman. Welcome and 
thank you for the great job you are doing with these tremendous 
challenges that the country faces, to both of you.
    My first question is to both of you. I want to focus on 
another part of the southern border that I don't think gets 
enough attention.
    As the representative from the U.S. Virgin Islands, where a 
district where I even seek acts, I am always concerned that not 
enough attention is being paid to the Caribbean, either in 
assessing the risks or in building strong partnerships that we 
need in that region.
    So do you feel comfortable that the Department and the 
Center are seeking and getting adequate information from the 
Caribbean, and even from South and Central America, where there 
are countries that are friendly with areas in the world that 
have radical Islamic extremism?
    Or are there any efforts, for example, to prevent 
radicalization, reduce the likelihood of radicalization or to 
help the governments in those countries to strengthen their 
capabilities to do so?
    Secretary Napolitano. Representative, I have myself asked 
somewhat similar questions, in part because of the increase in 
special interest aliens that we are seeing get up to the 
Mexican border, what are the routes, how are they getting 
across.
    It is a terrorism issue. It can be a human trafficking 
issue, a drug trafficking issue----
    Mrs. Christensen. All of this.
    Secretary Napolitano [continuing]. And all of the above. In 
this open setting, I would prefer not to give more of a 
detailed answer except to say that I share your concern to make 
sure that we not lose sight of this part of the world as we 
plan our protection strategies.
    We will be happy to sit with you in a classified setting to 
give you more information.
    Mrs. Christensen. Thank you.
    Mr. Leiter. Representative, I would largely say the same 
thing. I think there actually are some interesting pieces that 
I can't go into in open setting, with a particular focus to 
radicalization and movement of travelers.
    Mr. Leiter. We do spend significant time on the Caribbean.
    I will also tell you that there has been good cooperation 
in the past, for example, I believe it was 2007, the Cricket 
World Cup, it was held in the Caribbean.
    That provided an opportunity to help the region develop 
more effective screening of travelers. So there are some steps 
that the U.S. Government has taken to enable them.
    Of course, more towards South America, we have on-going 
concerns about the influence of terrorist states, sponsors of 
terrorism in that region and their presence.
    Mrs. Christensen. Thank you.
    I have also been away from the committee for a while. But 
while I was here before, I did put a lot of pressure on the 
then Secretary to beef up the Office of House Affairs and to 
make sure that lines of authority and response were clear 
between them and the Department of Health and Human Services 
and that they work seamlessly together.
    Given your response to the question about biological 
threats, what role does this office play, and are they 
adequately staffed, resources and placed to be effective?
    Secretary Napolitano. We are working very closely with the 
Department of Health and Human Services on a number of 
scenarios, pandemic planning being one, but also medical 
countermeasures, in the light of--if there were to be a 
biologic attack.
    We have been working with them on protocols, who would do 
what, when, and where? Do we have the surge capacity to handle, 
say, if there were to be an anthrax attack? We have been table-
topping some of these things.
    So, Representative, the work between our departments, I 
think, has been very good. I am not able right now at the table 
to say, do they have enough resources? All I can say is that we 
believe the biologic threat is real, and we believe it is 
something that we need to keep maturing our efforts about.
    Mrs. Christensen. Thank you.
    Director Leiter, from some of the reading that I did in 
preparation for this, it seems that there are still some turf 
battles and disalignment, I guess I would call it, regarding 
lines of authority and some stove-piping within the 
intelligence community, which would be very dangerous if it 
does exist.
    So where is the communication and the integration and the 
collaboration? Is it where it needs to be in the intelligence 
community?
    Mr. Leiter. Like every Government official, I will say, it 
is good. It can always get better. But now I do want to give 
you some perspective, having been doing this since 2004, and 
where we are today, it is night and day.
    Secretary Napolitano and I sit on what is called the 
Counterterrorism Resource Council, which is chaired by Jim 
Clapper. It includes Bob Mueller, the Director of the FBI, the 
Director of DIA, Leon Panetta, Director of CIA. Over the past 
year, we have met every 2 weeks to delve in as senior leaders 
for hours on end about how we can integrate our missions 
better.
    That is night and day, again, from where we were in 2004 or 
2005. Frankly, it is night and day from where we were in 2009. 
So I think there are always some tensions when organizations 
are trying to do the right thing and think they are trying to 
do the right thing and someone else disagrees. Not all of that 
tension is bad.
    On the terrorism issue, I think--I have never seen it 
better integrated than it is today.
    Just one other point about integration, you mentioned the 
Health and Human Services. We are integrated with them and DHS. 
They are in charge of refugee resettlement. They play a 
critical role in helping us work with new immigrant communities 
to reduce the likelihood of radicalization.
    Again, that sort of partnership between the 
counterterrorism community and an organization that is 
responsible for refugee resettlement, 4 years ago, never 
existed at all.
    Chairman King. Time of the gentlelady has expired.
    The gentleman from Arizona, Mr. Quayle.
    Mr. Quayle. Thank you, Mr. Chairman, and thank you to Madam 
Secretary and Director Leiter for being here and giving us the 
testimony on a very important subject.
    Madam Secretary, while I was reading your testimony and 
listening to your opening statement, the one thing that I was a 
little puzzled--and it surprised me--was the lack of emphasis 
on the southern border and how we are going to continue to 
protect the southern border.
    The reason that I was a little surprised by that is because 
the rise and the escalation of the violence between the drug 
cartels and the Mexican government as they continue to try to 
tamp down on the various drug cartels that are really ravaging 
the various areas along our southern border.
    So the reason I was sort of--and that was the reason I was 
surprised. Was it left out of there just because--do you think 
that we have operational control of the southern border? Or was 
it just not part of this particular testimony?
    Secretary Napolitano. Well, thank you, Representative. It 
was not emphasized in this testimony, because I didn't think it 
was within the scope of this particular hearing.
    I will send you the speech I gave in El Paso about a week-
and-a-half ago specifically to the southwest border. In the 
major point I made there, a major point, was that, while we are 
working with Mexico on the unprecedented level of violence 
there, as the cartels fight for territory, separate, terrible 
crimes aside--and there have been some--but we have not seen 
systemically that violence come across the border.
    What I have told and been very public about to these 
cartels is don't bring that over our border into the United 
States. We will respond very, very vigorously.
    The communities along the border themselves, you can talk 
to Mayor Sanders in San Diego or the mayor of El Paso and 
others, and they will say themselves, they are--from a safety 
standpoint--among the safest in the country. We want to keep it 
that way.
    Then, last, you referenced operational control. I think you 
are the third member now. As I have said before and I will say 
again, that is a very narrow term of art in Border Patrol lingo 
and doesn't--and should not be construed as kind of an overall 
assessment of what is happening at the border.
    Mr. Quayle. Okay. I understand that. You mentioned El Paso. 
You mentioned Yuma. You mentioned San Diego. These are areas 
where the Border Patrol agents have been actually beefed up, 
and we actually have barriers, and these are the areas that 
have actually had the expenses put down there. We have seen the 
apprehensions--and you had stated in your statement over in El 
Paso about the apprehensions going down.
    But do you know how many illegal immigrants have crossed 
the border, the southern border, in the last 2 years or year?
    Secretary Napolitano. Well, it is an estimate. It used to 
be that the estimate was that we were catching 1 in 3. I think 
the commissioner would testify, if he were here today, that 
that number--we are catching a much higher percentage.
    It is a combination of things, of the Congress, what it has 
invested in this border, the manpower, the technology, the 
infrastructure. The area that is my top focus down there is the 
Tucson sector. We do have some fencing in Nogales, as you know, 
but we are continuing to basically surge manpower and 
technology into that sector to shut it down.
    Mr. Quayle. Well, and from that, if you look at the--what 
has been happening, where the National Guard troops are going 
to be taken out, starting June through August, is that correct?
    Secretary Napolitano. Well, their current term ends in, I 
believe, June. I don't know that a decision has been made as to 
whether they will continue or not. That will be an interagency 
process with the Department of Defense and also the White House 
involvement.
    Mr. Quayle. Now, when we talk about statistics--and 
statistics can always be skewed a different way--how well do 
you think that it actually represent what is going on, on the 
southern border, when most of the statistics revolve around 
apprehension and not a really good understanding of what is 
going on in the rural parts of the border, where there is not 
as much enforcement and a lot of ranchers and the like are 
getting inundated from what the reports that they give with 
drug smugglers and human smugglers across their properties?
    Secretary Napolitano. Yes, I think you are talking about 
the rural areas of the Tucson sector. As I have said before, 
that is where we are really flooding resources now, shut some 
of that down. We are in constant touch through my office with 
the sheriffs along the entire border.
    The sheriffs tend to have the--you know, the rural areas, 
because they have the areas outside of municipalities. We are 
working directly with them and--on where we need to put 
resources, what they need.
    For example, one of the needs they had last year was help 
paying overtime, and we did move overtime money--Representative 
Miller is not here, so I think I can say it--from the northern 
border down to the southern border to help cover some of that 
overtime.
    We keep looking for efforts like that, but I can guarantee 
you, Representative, that this is something that gets daily 
attention at the department.
    Mr. Leiter. Thank you, Madam Secretary.
    Chairman King. The gentleman from Massachusetts is 
recognized for 5 minutes.
    Mr. Keating. Mr. Chair, thank you. Thank you, Ranking 
Member Thompson.
    Chairman King. Welcome aboard.
    Mr. Keating. Thank you, Secretary Napolitano, for being 
here.
    I am a new Member, but I am coming from a decade of law 
enforcement experience, dealing with a lot of these issues as a 
prosecutor. In fact, one of my last cases just a few months ago 
dealt with an issue that really called into very serious 
question the issues of aviation and transportation security. It 
is a situation--dealing with the 100 percent you had in 
November for successfully checking everyone that is on the 
watch list and making sure on inbound U.S. travels, as well as 
within the country, that they are checked.
    But in my case, it wasn't involving a person that had a 
ticket. It wasn't even involving a person that had a false 
identification. What occurred in that case is a young man, 16-
year-old young man, Delvonte Tisdale from North Carolina, had 
stowed himself into the wheel well of that plane. It departed 
from Charlotte, and his body was found in Milton, 
Massachusetts, when the landing gear of that plane was coming 
down.
    Despite the tragedy of losing a young man like that, it 
raised enormous questions about tarmac security. His video 
never showed up with investigations, to my knowledge, in the 
airport, and it didn't even show up near the perimeter.
    So what really I am concerned about is: What is being done 
by Homeland Security for safety on the tarmac that is vital for 
our aviation security? What other agencies are you working with 
in that respect?
    Because if it wasn't this young man that just stowed 
himself for his own reasons, if that had been a person with 
more nefarious motivation, think of what would have happened to 
that 737 commercial airliner or any of the other airliners that 
were there at that time. It really raised enormous concerns 
about aviation safety, and I would like you to address what is 
being done on the tarmac, as well.
    Secretary Napolitano. Well, a couple of things. One is, I 
will--I am going to ask TSA to respond directly to your 
question, Representative. The question of who controls what 
part of the airport, it is a combination.
    We work with the local airport authority on the areas of--
and we set standards and requirements for things like the 
perimeter. They are to carry out those standards and 
requirements.
    Clearly, if somebody, a 16-year-old, is able to circumvent 
those standards and requirements and get into the wheel well of 
a plane, there has been a breakdown. So I can't sit here, tell 
you what the after-action analysis was as to how that happened 
and what corrective action has been taken, but I can share with 
you that I suspect that that already has occurred and we will 
get it to you.
    Mr. Keating. I appreciate that.
    Mr. Leiter, were you aware of this incident at all? You 
know--and, really, the concern is not just which agency is 
catching the ball at a certain time. It is, there has to be a 
seamless way for the agencies to deal with this locally or all 
the invasive procedures are there when you are getting a ticket 
are for naught.
    Mr. Leiter. Congressman, I was aware, but only through the 
press reports. I remember it took some time to figure out that 
he was actually set away on the plane when the body was first 
found. What we have been concerned about for quite some time, 
not just here in the United States but overseas, the insider 
threat to aviation.
    Those individuals who, even if they are not sneaking in, 
have credentials either to restricted areas of an airport or 
work for an airline, understand the watchlisting procedures, 
understand the screening procedures. I know DHS and NCTC work 
together with the airline industry to discuss those 
vulnerabilities, screen individuals and the like. But we will 
certainly continue to work with Secretary Napolitano on this 
case to see whether or not there is a broader perimeter issue.
    Mr. Keating. I would welcome that information. I can speak 
for myself and I think for the members of the committee. This 
is an area that we will work with you on because these are 
really serious questions, not just in the Boston area but also 
in the Charlotte area.
    Secretary Napolitano. In the Charlotte area, yes, right.
    Mr. Keating. Thank you.
    Chairman King. The gentleman from Virginia. Mr. Rigell is 
recognized for 5 minutes.
    Mr. Rigell. Thank you, Mr. Chairman. Secretary Napolitano, 
thank you for being here and Director Leiter.
    Last night the House fell short of the votes necessary to 
extend certain parts of the Patriot Act. Could you just comment 
on that please? The ramifications if those provisions are not 
extended.
    Mr. Leiter. Congressmen, as I testified before several 
years ago when this was up, the Patriot Act remains a very 
important tool, especially with respect to home-grown 
extremists. So from my perspective, to have the Patriot Act 
expire on February 28 would be extremely problematic and would 
reduce our ability to detect terrorists.
    Mr. Rigell. Many of my constituents, and I share their 
view, I have a deep concern about abuse of these powers. I 
would like to know, and my constituents would like to know, 
what specific practical steps are being taken to properly 
balance this tension that does exist between our freedom and 
our security? So if you could unpack that a bit, I would 
appreciate it.
    Mr. Leiter. Absolutely, Congressmen. I think it is a more-
than-reasonable concern. There are significant authorities and 
there need to be protections. There are three basic provisions. 
The business records provision, the lone wolf, and the roving 
wiretap.
    First of all, I would say that in almost all cases there 
are very, very similar tools already being used in the criminal 
context. But in fundamentally all of these provisions there is 
a rigorous set of oversight both within the Executive Branch 
but also through the FISA court, the Foreign Intelligence 
Surveillance Act court. So in the case of business records, a 
showing has to be provided to the FISA court of the 
appropriateness of the order. They then also can do oversight 
of those records and the like.
    So I think this is, in the words of Ronald Reagan, this is 
trust and verify. It is trusting it will do it right but then 
it is verifying that we are doing it right through independent 
means, such as the FISA court.
    Mr. Rigell. Are there examples within the Department where 
you have identified an abuse where an employee has abused his 
or her power and you have actually taken action and----
    Mr. Leiter. Congressmen, I apologize. I am not quite the 
right witness for that. I really have to defer to the 
Department of Justice. I know in other contexts NCTC has had 
situations where, for example, U.S. person information was not 
protected to the way we expect it to and require it. We have 
disciplined those individuals and we have submitted those 
findings back to the Department of Justice, our inspector 
general and our civil liberties protection officer. So----
    Mr. Rigell. Director, that is a fair answer. I have the 
privilege of representing Virginia's Second District, home to a 
beautiful port entrance to the Chesapeake Bay. So port security 
is a great concern to me. I notice that again it wasn't really 
listed in the opening statement as a high-level concern. So 
please address where on the order of threat assessment does 
port security come in.
    Secretary Napolitano. I will take that one, Representative. 
Again, it was not in the statement because of the title of the 
hearing and what we thought the scope of the hearing was. But 
port security is keenly important for a whole number of 
reasons.
    Our ports are where we--around our ports are where we have 
a lot of our chemical facilities. The safety of containers 
bringing cargo into the United States and how they are handled, 
the ability of the Coast Guard to protect the ports. They serve 
as the captains of the ports. So we have major initiatives 
underway in all of those areas.
    In particular, we are working globally on the security of 
the supply chain, which really--with the International Maritime 
Organization. Because that affects how cargo is actually 
brought across the seas and into the United States.
    Mr. Rigell. Thank you. I yield back.
    Chairman King. It is almost time to expire. I would just 
add to that that there has been close cooperation between the 
committee and the Department for at least 5 years in both 
administrations on the issue of port security. It is a major, 
major issue and it will definitely be addressed throughout the 
next 2 years. I can assure you of that. Also, not to speak for 
the Secretary, but--Department takes it very seriously.
    The gentlelady from California, Ms. Speier, is recognized 
for 5 minutes.
    Ms. Speier. Thank you, Mr. Chairman. Thank you Madam 
Secretary and Director Leiter. You know, I think at the outset 
I would like to say I think you have the toughest jobs around. 
It is easy for us to sit here and poke holes but you always 
have to be anticipating where the next threat is coming from.
    We have porous borders. We have a system where, if I 
understand it correctly, waiver programs could easily allow a 
terrorist to come to this country. I realize that we probably 
have it because we have comity between our countries and the 
like. I worry about the lack of exit tracking of visas.
    I worry also about cargo surveillance. I had a briefing 
last week in my district from local mechanics who are concerned 
about all of the repair work being done offshore now. They 
showed me pictures in El Salvador of a repair facility where 
you just showed your ID as you came in. There was no tracking. 
You could have phony ID. No one would know.
    You can anticipate that there are lots of holes still out 
there and that al-Qaeda and any number of other terrorists are 
seeing those same holes. From your perspectives, each of you, 
what do you think is the biggest hole that we have to close?
    Secretary Napolitano. Well, Representative, thank you for 
your kind words. I have gotten out of the business of ranking 
because it is fluid. It evolves. It changes based on what the 
current intel is. It requires us to react to what has occurred 
and also to be thinking ahead.
    With respect to the situation you referenced in El 
Salvador, one of the things that I--to me that illustrates is 
the absolute importance of good intel gathering and sharing. 
Not just within the United States, but abroad.
    When something is--significant is trying to infiltrate a 
port and get something like a radioactive or biological weapon 
inside a cargo container, say for example our ability to know 
ahead of time to be tipped off to know what to look for, as 
what happened in October with the air cargo plane, absolutely 
critical. So as we move forward, strengthening and enlarging 
those intelligence-gathering relationships is also very 
important.
    Mr. Leiter. Congresswoman, I first of all also thank you 
and I will say Secretary Napolitano has a harder job than I do. 
I am also loathe to actually give you what our greatest 
vulnerabilities are because I know al-Qaeda and other 
terrorists are listening to what we are seeing, and I don't 
want them to know what I think are our greatest 
vulnerabilities. I am happy to talk to you about that in a 
closed setting.
    What I will say is we have to look at both our greatest 
vulnerabilities in terms of likelihood and consequences. There 
are a lot of things that could happen where we have weaknesses, 
but the consequences of an attack along that angle really might 
not be that significant. So we have to balance trying to stop 
the most common attack or the most likely attack with the one 
that has the greatest consequences.
    In that respect, the Chairman raised chemical, biological, 
radiological, nuclear weapons. I don't think that is remotely 
the most likely avenue of al-Qaeda or al-Qaeda inspired 
terrorists to attack this country, but the consequences of that 
would be so great we have to invest very significant resources 
to guard against it.
    Ms. Speier. To follow up on the El Salvador issue, 
shouldn't we be requiring American airlines--not American 
Airlines but American airlines--to make sure they have strong 
kinds of security systems in place when they are doing the work 
offshore? It appears they do not and we don't require them to.
    Secretary Napolitano. Representative, I need to know more 
about the El Salvador situation, but as I testified earlier we 
are now requiring 100 percent screening of all in-bound, high-
risk cargo that is on a passenger plane. Those are terms that 
would--that meet--require certain levels be met. We actually do 
work with the American flag carriers on those. They are part 
and parcel of this system, even from international ports.
    Mr. Leiter. Congresswoman, I will simply add if I could the 
challenge you identify is unique neither to El Salvador nor to 
aviation. The counterterrorism effort is truly a global effort 
and it is why we spend so much time with our overseas partners 
on aviation security, port security, intelligence, information 
sharing. We are very reliant on our partners doing what we 
think needs to be done to keep the homeland safe.
    Chairman King. The gentlelady's time has expired. The 
gentleman from South Carolina, Mr. Duncan, is recognized.
    Mr. Duncan. Thank you, Mr. Chairman.
    Madam Secretary and Director Leiter, thank you for being 
here today.
    I wanted to first off thank the gentleman from the Virginia 
Tidewater for mentioning the PATRIOT Act and asking a line of 
questionings to ensure there are constitutional rights as free 
Americans aren't trampled.
    I consider myself a Tea Party congressman, and many of my 
colleagues here in the freshman class feel the same way. So 
during the course of getting to this office, we were questioned 
a lot about certain things that the United States were doing 
with regard to patriotic Americans, who may label themselves as 
Tea Party folks, who peacefully assemble and petition the 
Government for redress of grievances, all the first amendment 
rights that we have.
    So I am concerned, and they are concerned in South 
Carolina, about a report of April 2009 from your Department 
titled ``Right Wing Extremism: Current Economic and Political 
Climate Fueling Resurgence in Radicalization and Recruitment.'' 
We understand that the House has passed a resolution of inquiry 
in the last Congress, and this committee held hearings on it. 
To my knowledge that document has never been retracted or 
corrected.
    So the question for you today is: Does your Department 
consider military veterans or groups dedicated to single 
issues, patriotic Americans, a threat to homeland security and 
high risk to engage in extremist activity?
    Secretary Napolitano. I think that is for me. As I said 
earlier in this hearing, Representative, that was a report that 
was begun under the prior administration and issued by mistake 
by our Department before it had been properly edited.
    Now, to the point, of course, we don't consider patriotic 
Americans to be terrorism threats. Of course, we work closely 
with our military. My Department--we have now--we have had 
aggressive hiring within military and veterans coming back, and 
we have now almost 50,000 veterans in my Department, not to 
mention active-duty Coast Guard. So we are heavily military 
reliant, dependent and interconnected.
    Mr. Duncan. Thank you for that, by the way.
    Secretary Napolitano. There you go. Now, I think a larger 
point is that as we do our work, we cannot categorize by 
ethnicity or religion or any of those sorts of things. We have 
to make decisions based on intelligence and intelligent sharing 
and risk about particular individuals.
    That is the way that we have directed it be done in our 
Department. That is what is required under the United States 
Constitution. While the FBI is not here today and the 
Department of Justice is not here, they have very strict 
standards in that regard.
    Mr. Duncan. What can you do or what steps have you taken to 
ensure this type of reporting as demonstrated doesn't happen 
again? Because in my opinion we have targeted a quote in that 
report, and we never retracted that. So I just don't want that 
to happen again.
    Secretary Napolitano. Well, that report is no longer 
available. Congressman, I would simply say that I have been the 
Secretary for almost 2 years since then, and you have not seen 
a similar report come out of the Department.
    Mr. Duncan. Thank you very much.
    I yield back the balance of my time, Mr. Chairman.
    Chairman King. The gentlelady from California, Ms. 
Richardson, is recognized for 5 minutes.
    Ms. Richardson. Yes. Thank you so much, Mr. Chairman.
    Thank you to our two witnesses who are here today for your 
frankness and efforts to work with this committee.
    Just a couple of questions that I have. One is there is 
much discussion here in the House in terms of reducing budgets 
back to 2008 levels. Madam Secretary, I would like to hear your 
opinion. If in fact that were to go into effect, how would that 
impact your Department? What would you specifically see might 
need to be cut, since we are not provided any of that 
direction?
    Secretary Napolitano. Well, that is a very difficult 
question to answer, but this Congress in a bipartisan way has 
been building this Department. It put 22 some-odd the agencies 
together. It gave us probably the most varied group of missions 
of any Department, and they touch directly on the safety and 
security of the American people.
    They have asked us to protect our ports. They have asked us 
to protect our borders. They have asked us to protect our 
communities against terrorists, whether international or 
homegrown. They have asked us to protect our cyber walls. We 
have been building to meet those missions. That is what we do. 
So we are going to be, and the President is going to be, I 
think, very careful in his request. We are under the same 
fiscal discipline demand as every other department, and we 
ought to be. There are some places where I think we can 
eliminate redundancies and save, and we are constantly looking 
for those.
    But to simply take a big old thing and say we will go back 
to 2008 without understanding operational impacts for this kind 
of work would probably not be what I would advise from a 
budgetary standpoint.
    Ms. Richardson. Thank you for that comment. I think it is 
very helpful to us all.
    My second question is we have several trade agreements that 
are on the horizon. Korea is here--probably soon Colombia and 
Panama coming. You have heard several questions having to do 
with the ports. When we asked the question, when you first 
became Secretary, about implementing the 9/11 recommendations, 
one of your responses was, well, in order for us to do that, we 
would have to do all these new agreements.
    How involved have you been with the current trade 
agreements that are on the table, if at all? If you have, do 
you see the possibility of us implementing some of these 9/11 
recommendations with those possible trading partners?
    Secretary Napolitano. Representative, I have not personally 
been involved in negotiating those trade agreements. We will 
have to get back to you as to whether individuals and the 
Department may have been. So I am just going to delete my 
answer at that for now.
    Ms. Richardson. Okay. I would say in particular Korea is of 
great concern. It is my understanding it is coming, and we want 
to make sure that for any future agreements, that Mr. Kirk is 
keeping in mind what we need to achieve for this committee.
    My second question, building upon previous questions of my 
colleagues, in this particular committee we will be having an 
upcoming hearing about looking at the potential radicalization 
of Muslims in this country. As I just heard your response, your 
department, you don't evaluate based upon race or religion and 
so on. You are basing your decisions on intelligence.
    So if that is the case, what percentage, if you have one, 
could you say occurs in terms of people that we need to be 
concerned about. Would you say 50 percent Muslim? Would you say 
50 percent, you know, if you could give us kind of a general 
idea?
    Mr. Leiter. It is a absolutely tiny percentage of the U.S. 
Muslim population and, frankly, the global Islamic population 
are those that we are concerned with at the National 
Counterterrorism Center. If you look at the numbers, they are 
significant in terms of number of attacks we have, but in terms 
of the broader Muslim community within the United States, it is 
a minute percentage of that population.
    Ms. Richardson. Thank you.
    With my remaining 49 seconds, I have been doing some work 
looking at cogs in continuity of government. I think the 
Department has done an amazing job of coordinating various 
agencies and being prepared.
    I think, though, the last ones that are ready happen to be 
us as elected officials, and so I just wanted to say, Madam 
Secretary, I plan on working with your folks to really explore 
how can we better prepare from the local, State, and Federal 
level as elected officials when we have to step forward when 
that disaster occurs, that we know who to call, we know where 
to go, and we know how to be helpful and not a hindrance in the 
process.
    Secretary Napolitano. Thank you.
    Ms. Richardson. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman King. Time of the gentlelady has expired.
    The gentleman from Texas, Mr. Farenthold, is recognized for 
5 minutes.
    Mr. Farenthold. Thank you, Mr. Chairman.
    At the risk of being redundant, I am probably the fifth or 
sixth person here who is going to express some concern over the 
44 percent operational control number. I think you have done an 
admirable job defining that as a term of art.
    What I would like to ask is let's take the word 
``operation'' out of there and define ``control'' as what the 
average American would say. What percentage control do you 
think we have of either of our borders now--or both of our 
borders?
    Secretary Napolitano. Well, I think in terms of manpower, 
technology, infrastructure, we have the effective control over 
the great majority of both borders, particularly at the ports. 
Then we are using manpower and new technologies to help us 
between the ports.
    It is a project that is never ending. We are relentless in 
it. We recognize that when you are a country as large as ours 
with that kind of land borders we have, that you are never 
going to seal those borders. That is an unrealistic 
expectation.
    But I would say my top priority in terms of the effective 
control is the Tucson sector of the southwest border.
    Mr. Farenthold. You also mentioned that you didn't feel 
like some of the violence from Mexico is spilling over into the 
United States annual crime. Just as a personal aside, I would 
like to take issue with that, because I really do believe that 
what we have is a very effective distribution network of 
narcotics that come into this country that I am very concerned 
could be exploited by terrorists and used for bringing in the 
tools of the terrorist trade.
    The easy availability of drugs in this country I think is 
an indication that we really don't have the level of control 
that we would all like to hold. That is----
    Secretary Napolitano. Indeed. One of the things that--all I 
will say in open setting is that we have for some time been 
thinking ahead about what would happen if, say, al-Qaeda were 
to unite with the Zetas, one of the drug cartels. I will just 
leave it at that.
    Mr. Leiter. Congressman, if I could just add, one of the 
things we did post-December 2009 attack in looking at other 
possible avenues is we embed it for the first time several DEA 
agents and analysts within NCTC to try to make sure that 
counter narcotics and counterterrorism information was being 
shared effectively.
    Mr. Farenthold. Great.
    Then just, kind of, jumping over to the TSA--and I realize 
this is probably outside of the scope of this hearing or 
something that we might want to take in a more classified 
environment--but where are we with respect to implementing a 
trusted traveler program that might mitigate the impact of law-
abiding Americans of having to undergo these intrusive TSA 
searches?
    My 21-year-old daughter had the misfortune of having a 
false positive display on one of the body scanners just last 
weekend and was subjected to a search that I think would rise 
to the level of sexual assault in most States. The Trusted 
Traveler Program seems like a way that it would pay for itself 
by user fees to alleviate that burden on at least the people 
who chose to take advantage of it.
    Secretary Napolitano. Absolutely. We are moving as swiftly 
as we can, trusted shippers, trusted travelers. We have well 
over 100,000 Americans signed up for trusted traveler air 
programs, like Global Entry. I would be happy to sign your 
daughter up, by the way.
    But I think that is the way to go. I mean, we need to have 
some way to effectively separate passengers and cargo that we 
need to pay specific attention to from those we don't. We will 
always have to do some random searches. Unpredictability always 
has to be a tool in the toolbox. But we need to--we need to be 
working toward a system where we have better ways to tier and 
focus on who needs to go through what kind of screening or what 
needs to go through what kind of screening. That is what we are 
working toward, Representative.
    Mr. Farenthold. Do you think it might be a cost-effective 
way to use Global Entry also for domestic flights, use 
something very similar to that infrastructure, and maybe a 
cost-effective way to implement it?
    Secretary Napolitano. Yes, we are looking at that right now 
as a possibility.
    Mr. Farenthold. Thank you.
    Chairman King. The gentlelady from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you very much. I am 
very grateful for this hearing and welcome, Secretary and 
Director Leiter, for what I think is an important discussion.
    Let me lay a premise for a series of questions very 
quickly. The people of Mexico, many of us who live on the 
border view them as our friend. But I do believe that there is 
a war going on. For us to ignore that--it is a drug war. It is 
a violent war. It is human smuggling. It is a war.
    When you have two young teenage boys, high school, leave to 
cross the border for what is perceived as an innocent activity 
at this juncture and wind up dead, this is--and you can count 
thousands who have died. We have a vicious and violent war.
    So my first question--and I am just going to ask a series--
is, as we look to the border, is the Homeland Security 
Department--and, of course, Customs and Border Protection as 
the agency--able to decipher the--and I think our flow of 
undocumented individuals coming across the border, I think, has 
actually gone down.
    But the point is--and I think you might confirm that--to 
that kind of war, versus individuals who have come to reunite 
with family members, whether you agree or disagree to come to 
work. Has the administration moved away from a concept of 
comprehensive immigration and border security as being partners 
in trying to fix the problem for us? That is the first 
question.
    The other question is to compliment TSA for the progress it 
has made. I still think--even though I am a proponent of 
ensuring our rail is safe, and I hope that the administration 
will look at the legislation we had last year that did not 
move--and I am hoping to work with this majority and this 
committee to do it again, H.R. 2200, with my colleague, Ranking 
Member Thompson, and I and Republican Members of this committee 
joined in on.
    Aviation still seems to be the most attractive target. In 
your perspective, are we where we need to be in aviation 
security? Can you affirmatively tell me that we are not going 
to go through the battle of 2001, which is to expand 
privatization of airport security, when we are making enormous 
progress, and I think we are being responsible?
    We have a new and enriched democracy with diverse persons 
of many different faith. So I will ask the question that I have 
heard that has been answered before on dealing with our friends 
of the Muslim faith, specifically, Madam Secretary--and I will 
provide you with a letter--I would like to have an 
investigation on a Houston imam who was a family person and had 
a religious visa approved. Shortly thereafter, it was either 
disapproved and that person was deported. We all know that, 
once deported, it is a complicated process, leaving his family 
destitute, and we can't imagine the circumstances of that. I 
think that is very harsh.
    I will ask the broader question as to how we address the 
policies of religious visas. Are we going to see the Muslim 
community unfairly targeted? Because they have a right to their 
faith, as well, though we are aware that we all must be 
diligent.
    Last, I would be interested in an answer--is about our 
cultural competency and the reach in that Department to be 
diverse and whether or not we have a diverse leadership, which 
would be under your ship, Director Leiter, you, Madam 
Secretary, and that includes African-Americans, Hispanics, 
Asians, Anglos, and, of course, the faith represented by 
Muslims.
    Secretary Napolitano. Representative, let me take some of 
those in order, and we can respond more fully.
    Chairman King. Secretary, if you would try to keep the 
answers about 3 or 4 minutes.
    Secretary Napolitano. Yes, I will try to keep it short. I 
am sorry, Mr. Chairman.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Secretary Napolitano. TSA privatization, the administrator 
has concluded not to expand privatization for a number of 
reasons, some of which are security-related, some of which are 
cost-related. He has announced that policy. As you know, the 
administrator is the former Deputy Director of the FBI.
    With respect to the Mexican border and the drug war in 
Mexico, we are highly cognizant of the amount of violence going 
on in Mexico, the number of deaths associated with that 
violence, particularly in the northern states of Mexico. We are 
working very closely with the Calderon administration on that.
    We have individuals in Mexico themselves working on these 
issues, but--and we are being very, very vigilant about that 
war being brought across our border. I will say it again to the 
cartels: Do not bring that war into the United States. But we 
need to work with Mexico to end the war.
    The administration remains committed to immigration reform 
and looks forward to working with----
    Ms. Jackson Lee. That includes comprehensive and border 
security?
    Secretary Napolitano. Indeed. Then, last, with respect to 
the particular case of the religious visa that you referenced, 
why don't I simply get that from you and I will respond in 
writing?
    Ms. Jackson Lee. I would appreciate it. Just the cultural 
diversity issue and including Muslims at the Department of 
Homeland Security.
    Secretary Napolitano. I would be happy--why don't I respond 
in writing to that?
    Ms. Jackson Lee. Mr. Chairman, could I just raise an 
inquiry to you, please? I would appreciate it if we could have 
a classified briefing on the border, on the southern border, 
particularly as it relates to drug cartels and the intermeshing 
between issues of terrorism or the porousness that is created 
and the distinction--and that would be my perspective--
separating out undocumented persons that may be coming for 
work--these people.
    Chairman King. I will work with our staff to make sure we 
do that. There is bipartisan interest in that, I can assure 
you.
    Ms. Jackson Lee. Thank you, Mr. Chairman. Thank you very 
much.
    Chairman King. The time of the gentlelady has expired.
    The gentleman from Missouri, you are up next, if you want. 
Okay. Then I will yield to the--not yield, I will--yes, yield 
to the gentleman from Florida, Mr. Bilirakis for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it.
    Madam Secretary, we have previously discussed the 
importance of the Visa Security Program and the need to expand 
ICE's visa security units to additional high-risk areas around 
the world. I understand that recent budget guidance to DHS for 
fiscal year 2012 from the Office of Management and Budget does 
not propose additional funding for the Visa Security Program 
and directs ICE to reconsider its deployment of personnel 
overseas for this purpose. I find this recommendation, of 
course, very troubling.
    The ICE personnel that are deployed overseas to high-risk 
visa issuing posts are uniquely qualified to review visa 
applications and to identify individuals who might be 
attempting to enter the United States to do us harm. Do you 
agree with the OMB recommendation, the guidance regarding the 
Visa Security Program?
    Secretary Napolitano. Well, let me--if I might, 
Representative--the President's budget request is not yet out. 
It will be out on Monday. I believe my first hearing on the 
budget is next Thursday--yes, next Thursday. I think if I might 
ask your forbearance and respond to budget-related questions at 
that time.
    Mr. Bilirakis. Okay. But I would like to keep in touch with 
you on this vital issue----
    Secretary Napolitano. Duly noted.
    Mr. Bilirakis. Thank you.
    Secretary Napolitano. Yes, sir.
    Mr. Bilirakis. One more question. As you are aware, 
terrorists involved in both the 1993 and 2001 World Trade 
Center attacks entered the United States on student visas, 
later violating their terms. I have long been concerned that 
there are inadequate security controls in the student visa 
issuance process. I have similar concerns about the process to 
monitor visa holders' compliance once they enter the United 
States. How concerned are you about the fraudulent use of 
student visas, or any visas for that matter?
    Mr. Leiter. We look at all types of visas. But, 
Congressman, I think you are absolutely right. There is a 
history with student visas. There is an on-going interest in 
student visas. So we have built in some extra protections on 
student visas, both for monitoring and cooperation with the 
countries that often sponsor those students for additional 
counterterrorism screening.
    Mr. Bilirakis. I would like to get with you--I have some 
recommendations of my own, as well.
    Mr. Leiter. Very happy to do that.
    Mr. Bilirakis. Okay. Thank you very much.
    Chairman King. The gentleman from Louisiana, Mr. Richmond, 
is recognized.
    Mr. Richmond. Thank you. Thank you, Mr. Chairman.
    We heard several points about our port security. As we talk 
about trade deals, I guess my question to you, Madam Secretary, 
is that, is there a way to evaluate or to inform us of, for 
example, South Korea and their port security? Because our 
security is based on how well they do their job over there.
    So as these trade agreements come up and as they are 
negotiated, I think it is very important for people in my 
district, which has the port of New Orleans and all the trade 
down there, to get some information on that.
    Secretary Napolitano. Congressman, yes. We will respond to 
you in writing on that. I know one of our six international 
locations for our maritime cargo scanning technology was in 
Busan in the Republic of Korea. So we will get some information 
to you.
    Mr. Richmond. Second, watching what happened down in 
Louisiana with the B.P. Horizon incident, how safe are our 
rigs?
    Give me an assessment on, for example, our LOOP, which 
supplies a lot of oil and stuff for the rest of the country.
    So looking at how long it would take to get a backup or to 
potentially stop the flow of oil, how safe are our German rigs 
that are off the coast of all of our Gulf States?
    Secretary Napolitano. Congressman, I have been on the LOOP 
and met with those individuals. There are extensive security 
precautions that are taken around that area.
    So there are no guarantees in this business. I think the 
Director and I would both agree on that.
    But do I think they are taking all reasonable security 
precautions? I feel that they are.
    Mr. Richmond. Thank you, Mr. Acting Chairman. I yield back 
the remainder of my time.
    Mr. Bilirakis. Thank you. Thank you.
    Congressman Davis.
    Mr. Davis. Thank you very----
    Mr. Bilirakis. You are recognized.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Madam Secretary, Mr. Leiter, thank you both very much for 
being here and for your patience.
    As a new Member of this committee, let me just ask if you 
would quickly help me sharpen my understanding of what we 
define and designate as being terrorism or acts of terror.
    Mr. Leiter. Congressman, there are numerous definitions 
within Federal law about what terrorism is.
    The National Counterterrorism Center uses one of those, 
which is premeditated, politically-motivated violence by a non-
state actor.
    So the key piece there--key pieces, it usually comes down 
to is politically motivated violence.
    Mr. Davis. Madam Secretary, I am very interested and very 
concerned about the impact of illegal narcotics on life in our 
country and, indeed, throughout the world.
    We know that Afghanistan supplies about 90 percent of the 
opium trade. There are also questions about its relationship to 
funding the Taliban and its relationship with al-Qaeda.
    Could you tell me what our goals are there from a DHS 
vantage point? I mean, what are we attempting to do in that 
region?
    Secretary Napolitano. Well, Congressman, I think a better 
person to address that question to you would be the Secretary 
of Defense.
    But what our goal is at DHS, working with the government of 
Afghanistan--I was just there between Christmas and New 
Year's--is to assist them in building their civilian capacity 
to have control of their own borders, particularly their ports 
of entry, and to be able to have the infrastructure, the 
technology, and the trained and vetted units necessary to do 
that.
    Mr. Leiter. Congressman--I am sorry--if I could just add, 
is, as you know, the Drug Enforcement Agency has a significant 
presence in Afghanistan and works--and part of this is 
important from the terrorism perspective, because, as you say, 
some of those funds do go to support the Taliban and could 
effectively go to al-Qaeda if they are not already.
    I think it is an important piece to note, because it simply 
highlights the moral depravity on this front, too, and really 
the hypocrisy of the organization, al-Qaeda and the Taliban, of 
pursuing what they are viewing as a vision of Islam while still 
maintaining and shipping heroin and opium overseas.
    Mr. Davis. Of course, I come from Chicago, which is 
considered to be by many, and certainly those of us who are 
there, the transportation capital of the world.
    We place a great deal of focus and interest on airline 
security, airline safety.
    But I also have some concern about what we are doing in 
relationship to truck transport, buses, the large numbers of 
people who make use of them, and, of course, rail.
    Could you elaborate a bit on what we are doing in those 
areas to make sure that there is security and safety?
    Secretary Napolitano. Indeed, Congressman, and we have a 
whole surface transportation program and strategy that we will 
make available to you now.
    It is a little bit different because so much of it is 
controlled locally, bus systems, subway systems and the like.
    I think Chicago is fortunate because they have built now 
some extensive security in this, at least in the--within the 
municipal limits that come into a hub area so there could be 
some effective monitoring of surface transportation.
    But we have added so-called VIPER teams, which are 
intermodal transportation security teams, dogs, explosive trace 
detection equipment in the surface transportation environment.
    We have made grants and grant guidance available to 
localities for things of this nature as well.
    Mr. Davis. Well, let me just thank you very much and let 
me, again, as other Members have done, commend you for what I 
think the outstanding work is that you do. I certainly look 
forward to working more closely with both of you.
    Secretary Napolitano. Thank you, sir.
    Mr. Davis. I thank you, Mr. Chairman, and I yield back the 
balance of my time.
    Mr. Bilirakis. Thank you, sir. It doesn't appear that 
anyone else is here.
    So I thank the witnesses. Thanks for the extra time, for 
your valuable testimony, and the Members, of course, for their 
questions.
    The Members of the committee may have some additional 
questions for the witness. We will ask you respond to these 
questions in writing, please.
    The hearing record will be held open for 10 days.
    Without objection, the committee stands adjourned. Thank 
you.
    [Whereupon, at 12:31 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Ranking Member Bennie G. Thompson for Janet Napolitano
    Question 1. Madam Secretary, in your testimony you stated that ``in 
some ways, the threat facing us is at its most heightened state'' since 
9/11. This statement was given with little context and seems to imply 
an added security threat, yet the committee was not provided any new 
threat information. Moreover, there was no change to the National 
Threat Advisory System that is still on the DHS website or the new 
threat advisory pilot program you have announced to replace the color-
coded system. Why is the threat facing the Nation at its ``most 
heightened state,'' since 9/11?
    Answer. The terrorist threat facing our country has evolved 
significantly in the last 10 years, and continues to evolve. We face a 
threat environment where violent extremism is not defined or contained 
by international borders as evidenced by the Times Square bomber as 
well as the individual recently arrested in eastern Washington State 
for allegedly placing a bomb along the route of a Spokane parade in 
January. Today, we must address threats that are homegrown as well as 
those that originate abroad. As former Secretaries of Homeland Security 
have noted on several occasions, the threat of terrorism will never be 
completely eliminated and therefore, we will continue to operate under 
a heightened state of security. The Secretary's annual Congressional 
testimony on the homeland threat landscape (February 9, 2011), the 
Director of National Intelligence Annual Threat Assessment (February 
10, 2011), and other such vehicles will inform this baseline. The new 
advisory system will only be initiated for terrorist threats to the 
homeland that rise above and beyond this baseline.
  <bullet> From December 2009 through 2010, there were seven attempted 
        terrorist attacks or disrupted plots in the homeland. Two of 
        these operations were linked to al-Qaeda affiliates, one to an 
        al-Qaeda ally, and four to homegrown violent extremists. Most 
        did not reach the execution phase or the intended target, all 
        were operational failures, and none resulted in significant 
        casualties. Nevertheless, al-Qaeda and its affiliates almost 
        certainly perceive the failed attacks as both valuable 
        propaganda opportunities and radicalization and recruitment 
        tools that further its anti-Western narrative.
  <bullet> Mohamed Osman Mohamud's failed attempt in November 2010 to 
        allegedly bomb a Christmas celebration in Portland, OR 
        represents a recent example of the increasing threat from 
        homegrown violent extremists--Americans radicalized in the 
        United States, acting independently of foreign terrorist 
        organizations like al-Qaeda.
    The United States and our allies also face a threat from Westerners 
who have traveled overseas to receive terrorist training--with the 
intention of returning to conduct attacks at home. This presents 
numerous challenges as the individuals' status as Westerners provides a 
simpler method for terrorists to infiltrate the homeland while also 
increasing the groups' operational planners' knowledge of Western 
targets and security practices.
  <bullet> Since 2008, U.S. persons, including confessed al-Qaeda 
        operatives Najibullah Zazi and David Headley--the Chicago-based 
        individual who also confessed to being a Lashkar-e-Taiba (LeT) 
        operative--as well as confessed failed Times Square bomber 
        Faisal Shahzad, have traveled to Pakistan for terrorist 
        purposes and, upon their return to the United States, were able 
        to operate under the radar of law enforcement, in some cases 
        for long periods of time.
    The past 18 months have also featured the emergence of Western 
ideologues--particularly American citizens like Anwar al-Awlaki, Omar 
Hammami, and Adam Gadahn--publishing increasingly sophisticated 
English-language propaganda on behalf of al-Qaeda and its affiliates. 
The increasing availability on the internet of their materials 
espousing violent extremism and providing practical operational advice, 
combined with social networking tools that facilitate violent extremist 
communication, complicates the challenge of addressing the threat to 
the homeland.
  <bullet> These violent extremist ideologues--al-Awlaki in 
        particular--have also spearheaded recent efforts to provide 
        Americans and other Westerners with the ability to 
        independently plan and execute their own terrorist attacks--
        without the need to travel overseas for training--through 
        English-language propaganda.
    Finally, we are currently witnessing an evolution in terrorist 
tactics. Terrorist attacks targeting the United States are trending 
towards smaller-scale operations executed on a compressed planning 
cycle that are perceived as successes, regardless of whether they 
caused physical damage. Violent extremist propaganda praised even 
operational failures in the West, spinning them as successful in 
causing economic damage, defeating existing security measures, and 
forcing the West to spend billions in security upgrades, while 
highlighting the operations' relatively low cost and ease of planning 
and execution. We are concerned that the perceived successes of such 
smaller-scale attacks portends that these operations will occur with 
greater frequency and offer fewer opportunities for disruption.
  <bullet> Al-Qaeda in the Arabian Peninsula's (AQAP's) English-
        language propaganda magazine--referencing the disrupted October 
        2010 plot to send explosive-laden packages on aircraft--
        boasted: ``To bring down America we do not need to strike big . 
        . . it is more feasible to stage smaller attacks that involve 
        less players and less time to launch and thus we may circumvent 
        the security barriers America worked so hard to erect.''
  <bullet> In the same edition, AQAP noted that the October 2010 plot 
        was part of its ``strategy of a thousand cuts''--intending to 
        ``bleed the enemy to death'' and noted that despite the West's 
        success in intercepting the parcels, the $4,200 operation would 
        force the United States and its allies to spend ``billions'' on 
        security upgrades.
    Question 2. The latest Moscow airport suicide attack underscores 
what seems to be a troubling new trend: Terrorist attacks on soft 
targets in transportation infrastructure, such as pre-security baggage 
claims and subways. As you know, in other airports across the world, it 
is not uncommon to be inspected as soon as you enter the premises. What 
can we take away from the Moscow attack for our own airport security 
here at home? What strategy does DHS have in place to address terrorist 
attacks on soft targets, including shopping malls, pre-security baggage 
claims, and mass transit?
    Answer. One of the Department of Homeland Security's (DHS) primary 
strategies is to work with our partners in the intelligence community 
and in Federal, State, and local law enforcement to identify and 
prevent threats before they are carried out. Simultaneously, we work 
with airport authorities and other stakeholders to implement a layered 
security approach to mitigate the threat of terrorist attacks against 
soft targets.
    The terrorist attack at Moscow's Domodedovo International Airport 
demonstrates the importance of having an effective security plan in 
place at our Nation's airports. There are various layers of security at 
U.S. airports designed to help prevent or deter this type of an attack. 
The primary responsibility for security outside of the checkpoints 
rests with the airport operator, as detailed in the airport security 
plan that each airport operator submits to the Transportation Security 
Administration (TSA). Additionally, TSA personnel, including Behavior 
Detection Officers, Transportation Security Inspectors, and Federal Air 
Marshals, are engaged and trained to look for anomalies as they provide 
security, with local airport police, throughout both the public and 
secure areas of our Nation's airports or any other venue where they are 
dispatched. I also cannot overstate the importance of public awareness 
and engagement in alerting law enforcement and security personnel to 
unusual behavior or activities by individuals. It is why I have placed 
so much emphasis on the ``If You See Something, Say Something'' program 
to solicit assistance from the public and further enhance security in 
airports and elsewhere.
    In light of the Moscow Domodedovo International Airport attack, TSA 
has increased security in the public areas of all airports both by 
conducting visible and covert operations. TSA has also developed the 
tactical response plan (TRP), which details the actions necessary at 
the field level to support the overall TSA operational response to 
various scenarios. All of our measures augment the existing security 
measures employed in all modes of transportation and may be used in 
combination with each other.
    Additional information regarding TSA's mitigation strategy and 
response plans for a similar attack are considered sensitive security 
information and can be discussed during a thorough briefing on this 
topic at your convenience.
    Following the Moscow Domodedovo International Airport attack, the 
DHS Office for Bombing Prevention (OBP) released a Quick Look Report on 
TRIPwire that provided details on the device and the tactics used to 
State, local, Tribal, and territorial law enforcement to inform 
domestic prevention and deterrence efforts. TRIPwire is DHS's 24/7 on-
line, information-sharing network of current terrorist IED tactics, 
techniques, and procedures, including design and emplacement 
considerations.
    DHS's Office of Infrastructure Protection (IP) has a variety of 
programs to prepare for and address the threat of terrorist attacks on 
soft targets, including shopping malls, airports, hotels, sports 
venues, and other public gathering facilities.
  <bullet> IP has developed and provided to State, local, Tribal, and 
        territorial agencies a series of reports, known collectively as 
        the Infrastructure Protection Report Series (IPRS), that 
        provide information on characteristics and common 
        vulnerabilities of various types of critical infrastructure, 
        potential indicators of terrorist activity, and associated 
        protective measures to mitigate risks. IP has developed 360 
        IPRS reports, including reports for airports, shopping malls, 
        hotels, sports venues, and other public gathering facilities.
  <bullet> IP's OBP provides Surveillance Detection and Soft Target 
        Awareness Training to State and local law enforcement officers 
        and private sector facility security personnel to develop 
        awareness of terrorist threats to critical infrastructure and 
        educate participants on strategies for detecting and mitigating 
        these threats.
    IP's field-deployed Protective Security Advisors (PSAs) have 
conducted numerous outreach efforts to raise awareness of terrorist 
threats to soft targets and provide tools and resources to mitigate the 
threat. These outreach efforts included joint Office of Intelligence 
and Analysis and IP briefings on the terrorist threats, attacks, 
tactics, and potential protective measures. Notably, and to cite just 
two examples, these efforts reached 490 hotel, lodging, and major 
retail facilities in 2009, and 338 sports league venues in 2010.

                                 <all>

</pre></body></html>
